<html>
<title> - HEARING ON H.R. 3981, H.R. 4109, H.R. 4141 AND H.R. 4158</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
        HEARING ON H.R. 3981, H.R. 4109, H.R. 4141 AND H.R. 4158

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

H.R. 3981, TO MODIFY THE BOUNDARIES OF THE GEORGE WASHINGTON BIRTHPLACE 
               NATIONAL MONUMENT, AND FOR OTHER PURPOSES.
  H.R. 4109, TO AUTHORIZE THE GATEWAY VISITOR CENTER AT INDEPENDENCE 
           NATIONAL HISTORICAL PARK, AND FOR OTHER PURPOSES.
   H.R. 4141, TO AMEND THE ACT AUTHORIZING THE ESTABLISHMENT OF THE 
 CHATTAHOOCHEE RIVER NATIONAL RECREATION AREA TO MODIFY THE BOUNDARIES 
 OF THE AREA, AND TO PROVIDE FOR THE PROTECTION OF LANDS, WATERS, AND 
NATURAL, CULTURAL, AND SCENIC RESOURCES WITHIN THE NATIONAL RECREATION 
                     AREA, AND FOR OTHER PURPOSES.
   H.R. 4158, TO AUTHORIZE THE PRIVATE OWNERSHIP AND USE OF CERTAIN 
  SECONDARY STRUCTURES AND SURPLUS LANDS ADMINISTERED AS PART OF ANY 
NATIONAL HISTORICAL PARK THAT ARE NOT CONSISTENT WITH THE PURPOSES FOR 
  WHICH THE PARK WAS ESTABLISHED, IF ADEQUATE PROTECTION OF NATURAL, 
AESTHETIC, RECREATIONAL, CULTURAL, AND HISTORICAL VALUES IS ASSURED BY 
       APPROPRIATE TERMS, COVENANTS, CONDITIONS, OR RESERVATIONS.

                               __________

                     JULY 16, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-95

                               __________

           Printed for the use of the Committee on Resources

                      U.S. GOVERNMENT PRINTING OFFICE
 50-342 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho
                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                   Gary Griffith, Professional Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held July 16, 1998.......................................     1

Statements of Members:
    Bartlett, Hon. Roscoe G., a Representative in Congress from 
      the State of Maryland......................................    13
    Bateman, Hon. Herbert H., a Representative in Congress from 
      the State of Virginia......................................     5
        Prepared statement of....................................     7
    Borski, Hon. Robert A., a Representative in Congress from the 
      State of Pennsylvania......................................    19
    Faleomavaega, Hon. Eni F. H., a Delegate in Congress from 
      American Samoa.............................................     4
    Fox, Hon. Jon D., a Representative in Congress from the State 
      of Pennsylvania............................................    17
    Gingrich, Hon. Newt, a Representative in Congress from the 
      State of Georgia and Speaker of the House of 
      Representatives............................................    15
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     2
        Prepared statement of....................................     3

Statements of witnesses:
    Front, Alan, Senior Vice President, Trust for Public Land....    36
        Prepared statement of....................................    50
    Jarvis, Destry, Assistant Director for External Affairs, The 
      National Park Service; accompanied by Suzanne Lewis, 
      Superintendent, Chattahoochee River National Recreation 
      Area.......................................................    22
        Prepared statement of....................................    78
    Pickman, James, President, Gateway Visitor Center Corporation    35
        Prepared statement of....................................    47
    Tutwiler, Margaret Deb., Member of the Board of Trustees, 
      Kenmore Association, Inc...................................    33
        Prepared statement of....................................    43
    Weaver, Blaine, Retired Financial Institution Executive......    39
        Prepared statement of....................................    51

Additional material supplied:
    Kirby, Peter, Southeast Regional Director, The Wilderness 
      Society, prepared statement of.............................    57
    Text of H.R. 3981............................................    58
    Text of H.R. 4109............................................    60
    Text of H.R. 4141............................................    65
    Text of H.R. 4158............................................    72



HEARING ON H.R. 3981, TO MODIFY THE BOUNDARIES OF THE GEORGE WASHINGTON 
BIRTHPLACE NATIONAL MONUMENT, AND FOR OTHER PURPOSES, AND H.R. 4109, TO 
     AUTHORIZE THE GATEWAY VISITOR CENTER AT INDEPENDENCE NATIONAL 
HISTORICAL PARK, AND FOR OTHER PURPOSES AND H.R. 4141, TO AMEND THE ACT 
   AUTHORIZING THE ESTABLISHMENT OF THE CHATTAHOOCHEE RIVER NATIONAL 
 RECREATION AREA TO MODIFY THE BOUNDARIES OF THE AREA, AND TO PROVIDE 
FOR THE PROTECTION OF LANDS, WATERS, AND NATURAL, CULTURAL, AND SCENIC 
 RESOURCES WITHIN THE NATIONAL RECREATION AREA, AND FOR OTHER PURPOSES 
 AND H.R. 4158, TO AUTHORIZE THE PRIVATE OWNERSHIP AND USE OF CERTAIN 
  SECONDARY STRUCTURES AND SURPLUS LANDS ADMINISTERED AS PART OF ANY 
NATIONAL HISTORICAL PARK THAT ARE NOT CONSISTENT WITH THE PURPOSES FOR 
  WHICH THE PARK WAS ESTABLISHED, IF ADEQUATE PROTECTION OF NATURAL, 
AESTHETIC, RECREATIONAL, CULTURAL, AND HISTORICAL VALUES IS ASSURED BY 
       APPROPRIATE TERMS, COVENANTS, CONDITIONS, OR RESERVATIONS

                              ----------                              


                        THURSDAY, JULY 16, 1998

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room 1324, Longworth House Office Building, Hon. James Hansen 
(chairman of the Subcommittee) presiding.
    Mr. Hansen. The Committee will come to order.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. Good morning. We will hear testimony today on 
four bills: H.R. 3981, 4109, 4141, and 4158.
    The first bill for consideration is H.R. 4141 introduced by 
Speaker Gingrich to expand the boundaries of the Chattahoochee 
River National Recreation Area. This bill will increase 
protection for this endangered river and will allow for 
increased recreation opportunities in one of the fastest-
growing areas of the country.
    I understand the Park Service has had some concerns about 
the landowner opt-out provision of the bill. Let me explain 
that one reason I favor this approach is that, unless there is 
sufficient public process so that all concerned can view the 
interim map before this becomes law, we need this provision to 
ensure that a landowner does not fall within the boundaries 
unknowingly. The opt-out ability only applies until July 1, 
1999, when the permanent map will be prepared. I understand 
that the permanent [sic] map will be prepared this week and if 
we can get out to the community and have some public process, I 
would not object to removing the opt-out provision. Perhaps if 
the Park Service and the Superintendent could be helpful in 
that process, we could all agree.
    I would like to commend the Trust for Public Land for their 
hard work in preparing the maps and doing a great deal of the 
work for the Park and I commend the Speaker for his diligence 
in pursuing this needed expansion.
    The next bill we will hear today is H.R. 3981, introduced 
by Congressman Herbert Bateman. This bill would modify and 
expand the boundaries of the George Washington Birthplace 
National Monument in order to include an area known as Ferry 
Farm. The area, lying on the banks of the Rappa--how do you say 
that?--Rappahannock--thanks, Herb--River contains George 
Washington's boyhood home and is approximately 85 acres in 
size.
    H.R. 3981 also authorizes the Secretary of the Interior to 
enter into a cooperative agreement with the Kenmore Association 
for the management of the boyhood home site. This area will be 
managed to preserve the cultural and natural resources 
associated with the boyhood home of George Washington and also 
to enhance the public understanding of Washington's childhood.
    The next bill, H.R. 4109, introduced by Congressman Jon 
Fox, would authorize the Gateway Visitor Center at Independence 
National Historical Park. This bill authorizes the Secretary of 
the Interior to enter into a cooperative agreement with Gateway 
Visitor Center Corporation to construct and operate a regional 
visitor center on Independence Mall. The agreement would 
authorize the cor-

poration to manage the center in cooperation with the Secretary 
and to provide information, interpretation, and services to 
visitors to Independence National Historical Park, its 
surrounding historic sites, the city of Philadelphia, and the 
region, in order to assist in the enjoyment of the resources 
located in the greater Philadelphia area. Revenues generated by 
the corporation activities will be used to operate and 
administer the center.
    The last bill is H.R. 4158, introduced by Congressman 
Roscoe Bartlett, the National Park Enhancement Protection Act. 
H.R. 4158 would give the Secretary of the Interior full 
discretion to review whether lands or structures within 
national historical parks are secondary structures or surplus 
lands and not consistent with the reasons the park was 
established. After such review, if the Secretary determines it 
to be in the public interest, he may sell, lease, permit the 
use of, or extend a lease or use permit for those lands and 
structures determined to be surplus or secondary structures. 
Any revenues generated from these lands or structures will be 
deposited in a special trust fund in the Treasury and will be 
available to the Secretary without further appropriation for 
operation, maintenance, improvement of, or for the acquisition 
of land or interests for the national park system unit which 
originated the proceeds.
    [The prepared statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good morning everyone and welcome to the hearing. We will 
hear testimony on four bills, H.R. 3981, H.R. 4109, H.R. 4141 
and H.R. 4158.
    The first bill for consideration is H.R. 4141 introduced by 
Speaker Gingrich to expand the boundaries of the Chattahoochee 
River National Recreation Area. This bill will increase 
protection for this endangered river and will allow for 
increased recreation opportunities in one of the fastest 
growing areas of the country. I understand the Park Service has 
some concerns about the land owner opt out provision in the 
bill. Let me explain that one reason I favor this approach is 
that unless there is a sufficient public process so that all 
concerned can view the interim map before this becomes law, we 
need this provision to insure that a landowner does not fall 
within the boundaries unknowingly. This opt out ability only 
applies until July 1, 1999 when the permanent map will be 
prepared. I understand that the interim map will be prepared 
this week and if we can get this out to the community and have 
some public process, I would not object to removing the opt out 
provision. Perhaps if the Park Service and the Superintendent 
could be helpful in that process we could all agree. I would 
like to commend the Trust for Public Land for their hard work 
in preparing the maps and doing a great deal of the work for 
the Park and I commend the Speaker for his diligence in 
pursuing this needed expansion.
    The next bill we will hear today is H.R. 3981, introduced 
by Congressman Herbert Bateman. This bill would modify and 
expand the boundaries of the George Washington Birthplace 
National Monument in order to include an area known as Ferry 
Farm. The area, lying on the banks of the Rappahannock River, 
contains George Washington's Boyhood Home and is approximately 
85 acres in size. H.R. 3981 also authorizes the Secretary of 
the Interior to enter into a cooperative agreement with the 
Kenmore Association for the management of the Boyhood Home 
Site. This area will be managed to preserve the cultural and 
natural resources associated with the boyhood home of George 
Washington and also to enhance public understanding of 
Washington's childhood.
    The next bill, H.R. 4109, introduced by Congressman Jon 
Fox, would authorize the Gateway Visitor Center at Independence 
National Historical Park. This bill authorizes the Secretary of 
the Interior to enter into a cooperative agreement with Gateway 
Visitor Center Corporation to construct and operate a regional 
visitor center on Independence Mall. The agreement will 
authorize the Corporation to manage the Center, in cooperation 
with the Secretary, and to provide information, interpretation, 
and services to visitors to Independence National Historical 
Park, its surrounding historic sites, the city of Philadelphia, 
and the region, in order to assist in the enjoyment of the 
resources located in the greater Philadelphia area. Revenues 
generated by the Corporation activities will be used to operate 
and administer the Center.
    The last bill is H.R. 4158, introduced by Congressman 
Roscoe Bartlett, the National Park Enhancement and Protection 
Act. H.R. 4158 would give the Secretary of the Interior full 
discretion to review whether lands or structures within 
national historical parks are secondary structures or surplus 
lands and not consistent with the reasons the park was 
established. After such review, if the Secretary determines it 
to be in the public interest, he may sell, lease, permit the 
use of, or extend a lease or use permit for, those lands and 
structures determined to be surplus lands or secondary 
structures. Any revenues generated from these lands or 
structures will be deposited in a special fund in the Treasury 
and will be available to the Secretary, without further 
appropriation, for operation, maintenance, improvements of, or 
for the acquisition of land or interests for the national park 
system unit which originated the proceeds.
    We are very pleased to have the sponsors of these bills 
here with us today. I also thank all the other witnesses here 
today and look forward to their testimony.

    Mr. Hansen. We are very pleased that most of the sponsors 
are here. And before I turn to my friend from American Samoa, I 
would ask Mr. Bateman, Mr. Bartlett, Mr. Fox if they would come 
up and take their seats, and I understand the Speaker will be 
coming in. So we'll have you ready to go. Sit wherever you're 
comfortable. And Mr. Borski, please.
    I will turn to the gentleman from American Samoa.

    STATEMENT OF HON. ENI F. H. FALEOMAVAEGA, A DELEGATE IN 
                  CONGRESS FROM AMERICAN SAMOA

    Mr. Faleomavaega. I thank the chairman and I would 
certainly like to offer my personal welcome to our 
distinguished colleagues who are sponsors of these pieces of 
legislation. I'd like to personally welcome them this morning.
    Mr. Chairman, although all of the bills before the 
Subcommittee today are park related, they are very different in 
what they seek to accomplish. H.R. 3981, which was introduced 
by the gentleman from Virginia, my good friend Mr. Bateman, 
would add an 85-acre parcel known as the Ferry Farm to the 
George Washington Birthplace National Monument. This new 
addition follows action by the Congress of 5 years ago that 
added 12 acres to this park unit.
    H.R. 4109, introduced jointly by my good friends, the 
gentleman from Pennsylvania, Mr. Fox, and my good friend Mr. 
Borski, authorizes the National Park Service to enter into a 
cooperative agreement with a non-profit corporation to 
construct and operate a visitors' center on national parks land 
within Independence National Historical Park. With some of the 
controversy that has been generated from proposed public-
private partnerships, especially at Gettysburg National 
Military Park, I think we will want to look closely at this 
measure.
    Mr. Chairman, I have concerns with H.R. 4141, as introduced 
by the Honorable Speaker Mr. Gingrich. I am unaware of any 
feasibility or suitability study being done on this substantial 
addition to the Chattahoochee River National Recreation Area. 
The inclusion of language allowing landowners to opt out of the 
park is also troubling. In addition, it seems that the 
Appropriations Committee is getting out in front of the 
authorizing committee on this proposal by providing some $15 
million in land and water conservation funding, even as they 
cut back the National Park Services' land and water 
conservation funding request for the entire National Park 
Service by nearly 50 percent. Evidently the National Park 
Service also has a number of concerns and questions with the 
legislation and I will want very closely to hear from not only 
our Speaker, but the representatives of the Park Service.
    The same can also be said, Mr. Chairman, for H.R. 4158, 
introduced by the gentleman from Maryland, Mr. Bartlett, which 
authorizes the disposal of certain land or structures at 
national historical parks. And I want to know whether this is a 
policy we want to embark on and I'm very interested to raise 
these issues with the testimonies that will be provided by the 
officials of the National Park Service this morning.
    And, Mr. Chairman, again, I thank the witnesses for their 
presence and look forward to hearing their testimony. Thank 
you.
    Mr. Hansen. Thank you. In deference to the Speaker, who's 
on a very tight schedule, we thought we'd let him go first. 
However, he doesn't happen to be here. I understand he's coming 
up the stairs. So if that's all right with everyone----
    [Laughter.]
    In the State legislature, we used to saunter at times like 
this. I don't know what we do here. We'll just wait.
    Mr. Bateman. Pleased to defer, Mr. Chairman.
    Mr. Hansen. Tell me that he's not quite that close, so----
    [Laughter.]
    Mr. Bateman--because we have Mr. Borski and Mr. Fox running 
the same piece of legislation, possibly we'll start--Herb, if 
it's OK, we'll start with you.

   STATEMENT OF HON. HERBERT H. BATEMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Bateman. Thank you very much, Mr. Chairman, members of 
the Committee.
    I'm here today to speak to you about an important effort to 
preserve one of the most important historical properties in the 
nation, George Washington's boyhood home, Ferry Farm. Ferry 
Farm, located on the Rappahannock River, across from historic 
Fredericksburg in Stafford county, Virginia, was the site of 
George Washington's formative years. In 1738, when he was 6 
years old, his family moved to Ferry Farm where he lived until 
he reached young manhood.
    At Ferry Farm, the hackneyed phrase ``George Washington 
slept here'' takes on real meaning. It was here that the young 
Washington threw a coin across the Rappahannock River, chopped 
down the fabled cherry tree, and uttered the words, ``I cannot 
tell a lie.'' It was here that he suffered family tragedies, 
including the death of his sister Mildred in 1740 and of his 
father in 1743. It was here that he learned the craft of 
surveying and developed the character, will, and determination 
to overcome difficult obstacles that enabled him to lead the 
armies of the new nation to victory in America's Revolution and 
to become our first and arguably our greatest President.
    There can be no doubt of the historical significance of the 
property, as you read more extensively in the briefing 
statement attached to my testimony. The statement recently 
prepared by the National Park Service researchers. A 1991 
archeological investigation of the property revealed the 
presence of highly significant ma-

terial dating to Washington's occupancy of the property. The 
Park Service has determined that the buried archeological 
resources and the ability of the site to yield important 
information on the life of George Washington clearly indicate 
that the site is of national historic landmark quality.
    [The information referred to follows:]
    Mr. Bateman. Moreover, the post-Washington history of the 
site is of significant historic interest. Union soldiers 
marched across the property constructed a pontoon bridge 
crossing of the Rappahannock during the first battle of 
Fredericksburg. The archaeologists concluded that the 18th and 
19th century archeological sites and the landscape features on 
the property, quote, ``create an exciting and powerful 
interpretive setting,'' unquote. The juxtaposition of the 
artifacts from the principal founding father of our nation and 
from the terrible civil war provide a unique educational 
opportunity for generations of Americans to understand the 
birth and fitful growth of our nation in its infancy.
    It is truly remarkable that such a significant portion--
more than 80 acres--of the original Washington property has 
remained undeveloped for over two centuries. Yet this property 
has and still is threatened by development. Stafford County is 
one of the fastest-growing localities in the greater Washington 
metropolitan area. Much of the property surrounding Ferry Farm 
has already been developed.
    The Kenmore Association do deserve a tremendous amount of 
credit for this. Being a non-profit organization, founded in 
1922, to preserve the home of George Washington's sister, 
Betty, the association admirably intervened 1996 to prevent the 
property from being developed as a Wal-Mart shopping area. 
Kenmore, however, is a private, non-profit entity. It cannot 
protect this property in perpetuity. Only the Federal 
Government, through the National Park Service, can ensure that 
the property is protected for all future generations.
    This is the purpose of H.R. 3981. The legislation before 
the Subcommittee would enable the Park Service to obtain a 
historical preservation easement to the property. To do so, the 
property must first be included within the boundaries of a unit 
of the National Park Service. The bill, therefore, authorizes 
the Park Service to include the property within the boundaries 
of the George Washington Birthplace National Monument. This 
would enable the Park Service to acquire an interest in the 
property, in this case, a historical preservation easement. The 
legislation also clarifies that the Park Service may enter into 
a cooperative agreement with the owners of the property, which 
would be Kenmore Association, to ensure that the property is 
managed in accordance with National Park Service guidelines for 
historic preservation.
    This legislation is an outstanding example of the type of 
public-private partnership that we in the Congress should be 
striving to implement. Because Kenmore would retain title to 
the property, all costs associated with restoration of the 
property, developing interpretive structures, conducting 
archeological excavations, maintaining the property, and any 
liability would be borne by Kenmore. The Park Service would 
only incur the one-time cost of the easement but would, in 
return, ensure that this property is permanently pre-

served and managed in accordance with Park Service guidelines. 
Kenmore has prepared a long-range plan for the property and has 
had preliminary discussions with the Park Service about a 
management plan.
    Thank you, again, Mr. Chairman, and members of the 
Subcommittee, for your patience in providing me this 
opportunity to discuss this important legislation. As the 
member representing the First District of Virginia, I have a 
keen awareness of the need to preserve America's heritage. The 
First District, which I like to call America's First District, 
is home to Williamsburg, Jamestown, Yorktown, Fredericksburg, 
and so many other sites of profound importance to the 
understanding of our nation's history. Ferry Farm, George 
Washington's boyhood home, is without question of great 
historical significance. I urge you to favorably report H.R. 
3981 so that it may be enacted in this session of Congress, and 
thereby ensure that the boyhood home of our first President is 
preserved for posterity.
    Thank you very much.
    [The prepared statement of Mr. Bateman follows:]

Statement of Hon. Herbert H. Bateman, a Representative in Congress from 
                         the State of Virginia

    Thank you Mr. Chairman.
    Mr. Chairman, I am here today to speak to you about an 
important effort to preserve one of the most important 
historical properties in our nation--George Washington's 
Boyhood Home, Ferry Farm. Ferry Farm, located on the 
Rappahannock River across from historic Fredericksburg in 
Stafford County, Virginia, was the site of George Washington's 
formative years. In 1738, when he was 6 years old, his family 
moved to Ferry Farm where he lived until he reached young 
manhood.
    At Ferry Farm, the hackneyed phrase ``George Washington 
slept here'' takes on real meaning. It was here that the young 
Washington threw a stone across the Rappahannock River, chopped 
down the fabled cherry tree, and uttered the words, ``I cannot 
tell a lie.'' It was here that he suffered family tragedies, 
including the death of his sister, Mildred in 1740, and of his 
father in 1743. It was here that he learned the craft of 
surveying and developed the character, will, and determination 
to overcome difficult obstacles that would enable him to lead 
the armies of the new nation to victory in the American 
Revolution and to become our first and arguably our greatest 
President.
    There can be no doubt of the historical significance of the 
property. As you may read more extensively in the briefing 
statement attached to my testimony--a statement recently 
prepared by National Park Service researchers--a 1991 
archeological investigation of the property revealed the 
presence of highly significant material dating to the 
Washington occupancy of the property. The Park Service has 
determined that the buried archaeological resources and the 
ability of the site to yield important information on the life 
of George Washington, clearly indicate that the site is of 
national historic landmark quality.
    Moreover, the post-Washington history of the site is of 
significant historic interest. Union soldiers marched across 
the property and constructed a pontoon bridge crossing of the 
Rappahannock during the first battle of Fredericksburg. The 
archeologists concluded that the 18th and 19th century 
archeological sites and landscape features on the property 
``create an exciting and powerful interpretative setting.'' The 
juxtaposition of artifacts from the principal Founding Father 
of our nation and from the terrible civil war provide a unique 
educational opportunity for generations of Americans to 
understand the birth and fitful growth of our nation in its 
infancy.
    It is truly remarkable that such a significant portion--
more than 80 acres--of the original Washington property has 
remained undeveloped for over two centuries. Yet this property 
has--and still is--threatened by development. Stafford County 
is one of the fastest-growing localities in the greater-
Washington metropolitan area. Much of the property surrounding 
Ferry Farm has already been developed. The Kenmore Association, 
which is a non-profit organization founded in 1922 to preserve 
the home of George Washington's sister, Betty, admirably 
intervened in 1996 to prevent the property from being 
developed. Kenmore, however, as a private non-profit entity, 
cannot protect this property in perpetuity. Only the Federal 
Government, through the National Park Service, can ensure that 
this property is protected for all future generations.
    That is the purpose of H.R. 3981. The legislation before 
the Subcommittee would enable the Park Service to obtain a 
historical preservation easement to the property. To do so, the 
property must first be included within the boundaries of a unit 
of the National Park Service. The bill, therefore, authorizes 
the Park Service to include the property within the boundaries 
of the George Washington Birthplace National Monument. This 
would enable the Park Service to acquire an interest in the 
property, in this case an historical preservation easement. The 
legislation also clarifies that the Park Service may enter into 
a cooperative agreement with the owner of the property to 
ensure that the property is managed in accordance with National 
Park Service guidelines for historic preservation.
    This legislation is an outstanding example of the type of 
public/private partnership that we in Congress should be 
striving to implement. Because Kenmore would retain title to 
the property, all costs associated with restoration of the 
property, developing interpretive structures, conducting 
archaeological excavations, maintaining the property, and any 
liability would be borne by Kenmore. The Park Service would 
only incur the one-time cost of the easement, but would, in 
return, ensure that this property is permanently preserved and 
managed in accordance with Park Service guidelines. Kenmore has 
prepared a long-range plan for the property and has had 
preliminary discussions with the Park Service about a 
management plan.
    Thank you again Mr. Chairman and members of the 
Subcommittee, for providing me this opportunity to discuss this 
important legislation with you. As the member representing the 
First District of Virginia, I have a keen awareness of the need 
to preserve America's heritage. The First District, which I 
like to call America's First District, is home to Williamsburg, 
Jamestown, Yorktown, Fredericksburg, and so many other sites of 
profound importance to the understanding of our nation's 
history. Ferry Farm, George Washington's Boyhood Home, is 
without question of great historical significance. I urge you 
to favorably report H.R. 3981 so that it may be enacted in this 
session of Congress, and thereby ensure that the boyhood home 
of our first President is preserved for posterity.

[GRAPHIC] [TIFF OMITTED] T0342.001

[GRAPHIC] [TIFF OMITTED] T0342.002

[GRAPHIC] [TIFF OMITTED] T0342.003

[GRAPHIC] [TIFF OMITTED] T0342.004

    Mr. Hansen. Thank you, Mr. Bateman. Appreciate your 
testimony.
    Mr. Bartlett, we want to turn the time to you, sir. Would 
you pull that mike over close to you? I'd appreciate it.

   STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Bartlett. Thank you very much. H.R. 4158 is a very 
narrowly drawn bill to accomplish a very simple, single 
purpose. Through the years, the Congress has given the Park 
Service funds that could be used only for purchasing properties 
that were outside the park boundaries, but were needed in order 
to protect the viewscape of the park. Parks like Gettysburg--
there are a number of farms outside Gettysburg that are not 
owned by the Park Service, but they simply have an easement 
there so that those parks cannot be developed.
    But the Congress through the years has mostly given money 
to the Park Service that could be used only for purchasing 
lands that could not used for purchasing easements. As a matter 
of fact, most of the lands that have been acquired to protect 
the parks have been acquired fee simple by purchasing the 
lands, rather by purchasing easements, simply because the Park 
Service had no flexibility. They were given money that could be 
used only for purchase of the lands.
    What this legislation attempts to do is to permit the Park 
Service to use their good judgment. By the way, it is not 
obligatory, not mandatory in any way. The Park Service would 
not have to do one thing if they do not wish to. But if they 
wish to, this legislation would permit the Park Service to 
designate which parts of those lands which they have acquired 
to protect the park, where the purpose could be served just as 
well if the lands were to return to the private sector, go back 
on the tax rolls, and the Park Service would retain an 
easement.
    We have placed language in the bill which we feel is very 
clear to authorize the private ownership and use of certain 
secondary structures and surplus lands--that is lands that are 
not the essence of the park, but were acquired to protect the 
park--administered as part that are not consistent with the 
purposes for which the park was established--that is, not the 
essence of the park--if adequate protection of natural, 
aesthetic, recreational, cultural, and historical values is 
assured by appropriate terms, covenants, conditions, or 
reservations.
    For instance, if a farm outside of Antietam, if that farm 
were to be sold back to the private sector, easements could be 
put on it requiring that that farm must remain a farm in 
perpetuity, that the only way it could be farmed is with horses 
if that was what the Park Service desired. Now we--all of our 
farmers are not Amish, but we have enough Amish farmers that 
I'm sure they could find Amish farmers that would farm those 
farms with horses. So that when you were visiting this historic 
park, the viewscape would look like it looked when the battle 
occurred.
    This is very simple legislation and I cannot understand how 
it could be misunderstood, but apparently it can because just 
at 9 this morning, we got a communication from the Park Service 
and apparently later today they're going to testify that they 
are opposed to this legislation. But the reasons they state are 
not consistent with the bill itself: ``We do not view any land 
within a national park to be surplus.'' Neither do we. That is 
not the intent of this bill.
    The intent of this bill is simply to permit the Park 
Service to use their good judgment when we not permit them to 
use their judgment in the past and we gave them moneys that 
they could use only for purchasing lands to now use their good 
judgment to decide whether or not they need to retain those 
lands fee simple or whether they could meet the needs of the 
Park Service by simply retaining appropriate easements on those 
lands.
    Now there is one unique situation. Let me take just a 
moment. You're going to hear about it a little late because you 
have a witness. This is a unique situation relative to the C&O 
Canal. Now the C&O Canal is an historic park and it was the 
towpath and the canal. About 25 years ago, the Park Service 
decided that they would like to enlarge that Canal, that park. 
So apparently someone in Washington sat down and drew on paper 
lines that were so many feet from the Canal and towpath. And 
then they acquired properties within those boundaries.
    When they acquired some of those properties, when you 
actually went onsite--you will hear the witness testify today--
some of those properties are about 70 feet above the towpath, 
up an essentially vertical cliff, and you cannot even see the 
properties from the towpath. They are not in the viewscape of 
the C&O Canal and, really, their acquisition in no way 
protected the canal because they were not even in the viewscape 
of the canal. Yet right across the Potomac River, there is all 
sorts of commercial development that is clearly within view of 
the C&O Canal and that has not been protected by the Park 
Service. So this is a unique situation where these lands may, 
by definition of the Park Service, be within the park.
    But, ordinarily, our bill is not addressing lands within 
the park. It is addressing only lands that have been acquired 
to protect the park. And it's only these lands that the bill is 
meant to apply to. And had we given the Park Service the 
flexibility in the past of using the money we gave them to 
either purchase lands or to purchase an easement on the land 
and to use the remainder of the money for improving the park, 
the majority of the time they would have purchased an easement 
and used the remainder of the money for improving the park.
    This legislation now will permit them to go back and take 
any of the lands that we have required them in the past to 
acquire in fee simple, to sell those lands, keeping appropriate 
easements, and to use the revenues generated from that to 
improve the local parks. Those moneys do not go back into some 
big black hole inside the Beltway. They go into a fund that can 
be used for improving the local parks.
    Again, this legislation is not mandatory. It is only 
permissive. The Park Service does not have to do one thing if 
they wish. And, contrary to the analysis of the Park Service--
and they will testify a little later--we are not talking about 
lands within the park. Nobody wants to sell the Liberty Bell or 
to put strip malls inside Yo-

semite Park. This only relates to lands outside the park that 
are required to protect the park where that purpose could have 
been achieved just easily by acquiring a scenic easement. The 
lands would still stay on the tax roll. Someone else would pay 
for maintaining those lands. And we think this is legislation 
which is in the best interests of the Park Service and our 
citizens, the users of the park, and the taxpayers.
    Thank you very much.
    Mr. Hansen. Thank you, Mr. Bartlett.
    The next bill we'll hear is H.R. 4141, introduced by 
Speaker Gingrich, to expand the boundaries of the Chattahoochee 
River National Recreation Area. Speaker, we'll turn to you, 
sir.

 STATEMENT OF HON. NEWT GINGRICH, A REPRESENTATIVE IN CONGRESS 
     FROM THE STATE OF GEORGIA AND SPEAKER OF THE HOUSE OF 
                        REPRESENTATIVES

    Mr. Gingrich. Thank you very much for allowing me to 
comment and to share with you. I have some material I'd like to 
submit for the record, if I could, and then I'll just talk in 
general.
    Mr. Hansen. OK.
    Mr. Gingrich. That material includes letters of support 
from various Georgians, including the Governor.
    [The information referred to follows:]
    Mr. Gingrich. Now the essence of this is pretty 
straightforward. The Chattahoochee River National Recreation 
Area has been very, very successful. It's very intensely used. 
The Chattahoochee River itself is ranked as one of the ten most 
endangered rivers in the country and it provides the drinking 
water for the Atlanta metropolitan area and for about half the 
population of Georgia. In fact, it is--The Chattahoochee is the 
smallest river basin to serve as the major water supply for a 
metropolitan area in the United States, which makes the 
challenge of it particularly difficult and it's compounded 
because in the area of the Chattahoochee above the city of 
Atlanta, the population growth is extraordinary. It's the 
second most rapidly growing area in the country. It's had 
400,000 people move in since 1990 and continues to grow at a 
dramatic rate.
    We have an opportunity, by expanding the recreation area, 
to save for the future both the quality of water of the river 
as it goes toward Atlanta and the quality of recreational 
opportunities in a way that's psychologically very important. 
And local citizens working together, led by people from a River 
Keepers Organization, which is a private group, but reaching 
out across a very wide range of Georgia organizations, have 
both developed a plan working with the Park Service, which is a 
public-private partnership in which a variety of developers and 
landowners have agreed to give easements. Others have agreed 
they would sell the land or swap the land.
    There is a proposal--and I want to commend Chairman Ralph 
Regula who's been very aggressive at looking for ways to get 
matching money to make sure that the citizens of the country 
were making investments where we could stretch the Federal 
dollar as far as possible. We believe it is possible that, for 
$25 million of Federal money, we will be able to ultimately 
leverage $90 million of State, local, foundation, and private 
money. Roy Richards, a leading industrialist in Georgia, has 
led the project to get the local money. The State of Georgia 
has allocated $15 million already. There are a number of 
foundations and corporations that have indicated they would be 
committed.
    In addition, we believe that the legislation protects 
property rights and establishes a negotiated relationship in 
which the Park Service will work to develop a 2,000 foot 
corridor on each side of the river and will work with private 
landowners in a way that I think will be a remarkable 
partnership.
    Finally, I'd just like to share a quote from the River 
Keepers' guide to the Chattahoochee, a book written by Fred 
Brown and Sherry Smith, with the support of my good friend 
Sally Bathay. They wrote, ``Only God can make a river and he's 
not making any more.'' And I think that our view, quickly, in a 
lot of areas, is that the Chattahoochee is so central both to 
our water supply and to the quality of life that being able now 
to proactively save the areas along the river prior to their 
being developed and dramatically increasing the runoff is both 
psychologically sound in quality of life and economically sound 
in quality of water. And having the level of local 
participation we do know, we believe we have proven that there 
is a massive public commitment to work with the Federal 
Government to expand the recreation area and to save the river.
    And I very much appreciate you allowing me to come today 
and to testify and I'd be glad to answer any questions.
    [The prepared statement of Mr. Gingrich follows:]
    Mr. Hansen. Appreciate your presence, Mr. Speaker.
    The gentleman from American Samoa, Mr. Faleomavaega, you 
have any questions for Speaker Gingrich?
    Mr. Faleomavaega. Mr. Chairman, it's a rare opportunity and 
it's certainly a privilege and honor for this Subcommittee to 
have our Speaker grace us this morning with his presence, and 
certainly I would be the last person to question the 
gentleman's expertise and knowledge and understanding of the 
Chattahoochee River and problems associated with the proposed 
legislation, but I would like to say that we're, indeed, very 
honored to see that the third highest officeholder in the land 
IS here with us. And I don't how the gentleman is able to take 
time to take care of the situation in Georgia when he has 
national issues that confronts him every day. But certainly we 
really, really thank you for your being here, Mr. Speaker.
    Mr. Gingrich. Listen, my good friend, as you remember from 
your own election experiences, this body was designed by the 
Founding Fathers. If you don't take care of the folks back 
home, you don't get to take care of the Nation either.
    [Laughter.]
    And, in addition, I used to teach environmental studies. 
I've been actively involved with the Chattahoochee River now 
for some 28 years, starting in 1970. And I've had a very long 
involvement with the Georgia Conservancy. The three-State water 
compact between Florida, Alabama, Georgia, and the Federal 
Government was actually finalized in a 15-hour meeting in my 
office in Atlanta, which I chaired because they couldn't get it 
solved. And I commend Erskine Bowles for having helped--part of 
the Clinton Administration having helped make that possible.
    So I've had a very long, intimate involvement with the 
Chattahoochee, and the fact is I would guess 20, 30 times a 
year my wife and I walk somewhere along the Chattahoochee, so 
we've personally experienced the treasure that we have in that 
recreation area. That's why to me this is something--I'm 
honored the Committee would allow me to come over--the 
Subcommittee would allow me to come over and testify in favor 
of the bill and I hope at some point you'll look favorably on 
its being reported.
    Mr. Faleomavaega. If the chairman would yield further, 
certainly, to thank the Speaker for his comments, staff has 
just informed me that another contributor to the Chattahoochee 
River and this formation of the legislation and the passing, 
certainly my former boss and a privilege I had working with the 
gentleman, the late Congressman Phil Burton. And just because 
of that, Mr. Chairman, I will ensure the Speaker that I will go 
out of my way to make--and I sincerely hope that also that our 
friends from the National Park Service will be cooperative in 
seeing that maybe we should be able to work something out on 
this legislation.
    Thank you, Mr. Chairman, and thank you, Mr. Speaker.
    Mr. Hansen. The gentleman from Tennessee.
    Mr. Duncan. Thank you, Mr. Chairman. I have no questions, 
but I do want to say that I particularly appreciate the 
provision in this legislation that apparently some oppose to 
allow private property owners who wish to opt out of this 
legislation. But also I'm impressed and I salute the Speaker 
and others involved for raising so much of this through non-
Federal money.
    About 4 or 5 years ago, at the request of my friend John 
Wilkinson, who's now with the World Bank but who was at the 
Kennedy Center at the time, I introduced a bill that we passed 
to partially privatize the Kennedy Center so they could have 
more control over the money that they raised because--and I 
think Mr. Borski was involved in that also. But the Kennedy 
Center was willing to raise most of their own budget. And so 
I'm always impressed when we have organizations who come in 
here who are willing to raise most of the money for some 
significant project. So I think this is a great piece of 
legislation and I salute you, Mr. Speaker, and thank you.
    Mr. Gingrich. Thank you.
    Mr. Hansen. Thank you, Mr. Speaker. We appreciate your 
coming and your testimony and we intend to move this bill 
along.
    Mr. Fox, we'll turn to you, sir.

STATEMENT OF HON. JON D. FOX, A REPRESENTATIVE IN CONGRESS FROM 
                   THE STATE OF PENNSYLVANIA

    Mr. Fox. Thank you, Mr. Chairman. And I thank Chairman 
Hansen, Ranking Member Faleomavaega, and Congressman Duncan for 
allowing us to speak on behalf of the Fox-Borski bill this 
morning.
    H.R. 4109 would authorize the Gateway Visitor Center at 
Independence National Historic Park. The center will have a key 
role in the promotion of attractions to the Delaware Valley and 
help tourists better access information about these 
attractions. The visitor center would truly be a gateway to the 
parks and attractions in the Philadelphia area. The city of 
Philadelphia and other re-

gional leaders support the center. By passing this legislation, 
the Congress will allow the Gateway Visitor Center, a non-
profit corporation, to work with the National Park Service to 
enhance public tourist opportunities.
    Every child learns, Mr. Chairman, in elementary school 
about the importance of Philadelphia in the colonial history. 
the Second Continental Congress held in Philadelphia resulted 
in our Declaration of Independence. The Constitutional 
Convention, also convened in Philadelphia, resulted in the 
great nation's current form of government in 1787. The result, 
of course, of that convention was our U.S. Constitution which 
is now the model for all other democracies in the world.
    The Philadelphia area also has a number of historical sites 
that would be better served by the enhanced promotion of the 
center. As you know, Pennsylvania was the home not only to 
Benjamin Franklin, Betsy Ross, Robert Fulton, U.S. Speaker 
Muhlenberg, President Buchanan, and the founder of our 
Commonwealth, William Penn. The Gateway Visitor Center will 
enhance tourist enjoyment, increase the knowledge of students' 
history, and better remind citizens of the roots of our 
democracy.
    Almost everyone knows about the bitter, winter encampment 
of the Continental Army at Valley Forge. What many people do 
not know is that it is just a short ride from Independence Mall 
in downtown Philadelphia to the Valley Forge National Historic 
Park which is so large it actually is in two districts, mine 
and Curt Weldon's. And who can forget the dramatic crossing of 
the Delaware River led by General Washington on Christmas Eve, 
surprising the Hessian troops encamped in New Jersey and 
resulting in the first in a number of successes for 
Washington's troops.
    While these historic sites are more well known through what 
we learn in history class, it is just a small sample of what 
the area has to teach us about our national history. The home 
of John James Audubon in Mill Grove near Philadelphia located 
in my district is the home of our nation's first 
conservationist who left his land as a sanctuary for the birds 
he was dedicated to protecting. Another historic battlefield is 
located in Congressman Weldon's district. This is the Battle of 
Brandywine.
    Pennsylvania's preserved as well the Delaware Canal with 
the canal and the mule barge in Congressman Greenwood's 
district near Philadelphia. And the John Heinz Memorial 
Wildlife Refuge in Tinicum Township. The list goes on as we 
where Philadelphia became world famous not only for those 
things I mentioned, Mr. Chairman, but also the Franklin 
Institute, which utilizes a number of approaches to make 
learning about science fun. And not far from there is the 
heralded Philadelphia Museum of Art.
    And the fact is that we are proud to be here today, 
Congressman Borski and myself, to support this legislation. The 
center will not only fulfill a key part of our strategic plan 
for Independence National Historic Park, but will help 
visitors, students, families, and America's future leaders 
learn about our country and where it began.
    Thank you very much and we appreciate the Committee's 
favorable consideration of the legislation. We look forward to 
any questions you may have.
    Mr. Hansen. Thank you, Mr. Fox. Appreciate your testimony.
    Mr. Borski, I apologize. In our opening comments we should 
have mentioned the important part you're playing on this and I 
apologize to you that that was overlooked. We'll turn to you, 
sir.

    STATEMENT OF HON. ROBERT A. BORSKI, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Borski. Thank you very much, Mr. Chairman, Mr. 
Faleomavaega, and my friend, Mr. Duncan. Let me thank you for 
the opportunity to come before the Subcommittee this morning in 
support of H.R. 4109, legislation I have introduced with my 
good friend Congressman Fox and every member of the city and 
suburban delegation.
    Every year, nearly 5 million visitors come to Philadelphia 
and Independence National Historic Park to visit and learn 
about the beginnings of this great country and the foundings of 
democracy. I am proud to represent the park, which many 
consider the crown jewel of the National Park Service. It's 
home to the Liberty Bell, Independence Hall, and the birthplace 
of the Declaration of Independence and the Constitution of the 
United States. We must do all we can to preserve it.
    The present location of the visitors' center is situated in 
an area with limited public transit access and on a narrow 
street. The location for the proposed Gateway Visitors' Center 
will offer increased access to visitors. I'm committed to the 
development of this region and worked with my friend Mr. Fox 
and other area members to make sure that recently passed TEA-21 
contained $6.5 million dedicated for the construction of an 
Independence Gateway Intermodal Transportation Center. This 
transportation center will work in conjunction with the 
Independence Mall renovation projects and will enable 
transportation improvements to be made in the Independence Mall 
area, thereby increasing access to the historic area of the 
city.
    Mr. Chairman, the plans for both the Gateway Visitors' 
Center and the Independence Gateway Intermodal Transportation 
Center preserve history while at the same improving access and 
creating a new entrance to the park. H.R. 4109 is imperative to 
the renovation of the park included in the National Park's 
General Management Plan. It is extremely important for me and 
for Philadelphia to serve as a travel and tourism gateway for 
tourists worldwide, and for those who visit the historical area 
and experience its significance in the development of this 
great nation.
    The Gateway Visitors' Center will serve as the region's 
principal point of orientation by providing a range of 
exceptional services and programs, attracting visitors to the 
resources offered in and beyond the park. Independence National 
Historic Park houses two of our nation's most prized objects: 
Independence Hall and the Liberty Bell. I believe that H.R. 
4109 is vital to the preservation of these treasured artifacts 
that represent the ideas upon which our nation was founded and 
the struggle for freedom and democracy.
    And, Mr. Chairman, let me thank you and the members of the 
Subcommittee for hearing us today and I hope you would move 
this measure forward.
    Mr. Hansen. Thank you. Appreciate your testimony.
    Questions for our colleagues? The gentleman from American 
Samoa, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    To our good friends from Pennsylvania, Mr. Fox and Mr. 
Borski, you know one of the lessons I learned about 
legislation: if you've got it in the bag, just shut up and let 
it go. And I notice here, from the testimony from the Interior 
and from the National Park Service their position is that they 
support the legislation. So, gentlemen, congratulations for 
your efforts in working this legislation.
    I also want to compliment the gentleman from Maryland for 
his eloquent statement explaining a very unique situation with 
this legislation. And I certainly will be interested in hearing 
from our friends in the National Park Service why--the 
difficulty in endorsing what our good friend from Maryland is 
proposing and so I want to thank our friends, our colleagues, 
for their testimony.
    Mr. Hansen. Thank you. The gentleman from Tennessee, Mr. 
Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. Let me just say that 
most of my people live in and around Knoxville, but I have the 
privilege of representing the great Smoky Mountains National 
Park, or a large portion of it, and that is by far the most 
heavily visited national park and it has approximately 10 
million visitors, but at 5 million visitors a year, your 
Independence National Historic Park there is also one of the 
most heavily visited, because even some of our great parks in 
the West only have 2 or 3 million visitors a year. And so I 
think it sounds like you're talking about a good project and I 
certainly will support it.
    And I want to say to Mr. Bartlett that I strongly support 
your legislation. I know you're going to have some opposition, 
but I think the only thing--I wish you were making it mandatory 
instead of voluntary, because the Park Service is opposed to it 
and it's voluntary, then probably they're not going to do it 
anyway. But, you know, I read not long ago that over 30 percent 
of the land in this country's owned by the Federal Government; 
that another 20 percent is owned by State and local governments 
and quasi-governmental agencies. And that's been growing by 
leaps and bounds over the last 25 or 30 years. And I'll tell 
you, if we don't start recognizing that private property is in 
danger almost in this country and we're putting restrictions on 
private property that's left in the hands of citizens.
    But to put more property onto the private tax rolls, I 
think, is a great thing. But I can tell you that it's hard to 
find a Federal agency that's willing to part with even one acre 
of land. They just want to keep adding on.
    Mr. Bartlett. Mr. Duncan, thank you very much for your 
comments. We feel that if this legislation becomes law, that 
many of the parks, when they look at lands which they have 
acquired simply to protect the park that are not a part of the 
park, they're simply there as a part of the viewscape, when 
they realize that they could sell those properties, retaining 
appropriate easements so that the parks are protected just as 
well as if they owned the land and that they can have the money 
realized from that sale for developing the park, we think that 
there will be a lot of the local parks that will be looking at 
the lands that are not a part of the park that they have 
acquired only to protect the park. And, by the way, that they 
probably would not have acquired that way except that the 
Congress gave them money that could only be used for purchase 
of the land.
    We feel that they are going to exercise their good judgment 
and they're going to move a lot of this land back to the 
private sector where they will be on the tax rolls where 
someone else will maintain the land and it can be maintained 
exactly as the Park Service wants it maintained because they 
will have total control through easements and that sort of 
protection. So that the parks will be at least as well 
protected with this mechanism and they will get money for 
improving the local parks and the lands will go back on the tax 
rolls and someone else will be maintaining them.
    So it's a win-win situation for everybody. Thank you very 
much for your support.
    Mr. Duncan. Well, I certainly agree with you. And I support 
the legislation and I hope you're right. And maybe with the 
incentive that they will receive--that they will get to keep 
the--are they going to keep all of the money or a part of the 
money or what----
    Mr. Bartlett. The proposal in our legislation is that the 
local park would have all of the revenues generated from that 
to improve the local park. Otherwise, if that money goes into a 
big black hole in Washington, there's going to be little 
incentive for the local park to dispose of this land, keeping 
an appropriate scenic easement.
    Mr. Duncan. Well, I think it's good legislation and I hope 
we can get it through.
    Mr. Bartlett. Thank you very much, sir.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Hansen. The gentleman from--we'll recognize you on your 
own time.
    Mr. Faleomavaega. I'm sorry. OK. I just wanted to ask Mr. 
Bartlett. I think the problem here is--as you well know, that 
you've probably gotten a copy of the testimony of the National 
Park Service--and as along the line of what our friend from 
Tennessee was asking you, rather than giving the discretionary 
authority to the Secretary of the Interior to sell the lands, 
why don't we just mandate by legislation, say, just take it out 
of the authority of the National Park Service? And do what 
Congress would mandate what to do with those lands? And I'm 
just adding that as a suggestion to the gentleman, rather than 
giving discretionary authority to the Secretary, why don't we 
just by legislation mandate that these lands--if the National 
Park Service is no longer using them--just say, by Congress, 
specify what you want to do with it? Yes.
    Mr. Bartlett. ``Using'' is an interesting word because the 
lands were acquired to protect the viewscape. So that when you 
look out from Gettysburg, you don't see a shopping mall. They 
want to see farms; what was there when the battle occurred. 
Now, around Gettysburg, they have, in fact, acquired many of 
these farms through scenic easement. They're protecting the 
viewscape of the park through scenic easement.
    But in many places, the Congress has not given them that 
flexibility. We have given them money that could be used only 
for purchasing land. Had we given them the money and we could 
have told them, purchase lands and improve the park and you use 
the money as you see fit, they would have certainly purchased 
scenic easements on the land and used the additional moneys for 
improving the parks. The Park Service is now very short of 
money for maintaining and improving the parks. This will 
provide a source of revenue for them.
    It needs to be protected. We hope that we have drawn the 
legislation very narrowly so that the essence of the park is 
not an issue of this legislation. You know, nobody wants to 
sell off the Liberty Bell or build strip malls in Yosemite. 
It's only lands that were acquired to protect the parks. And I 
think the Park Service has misunderstood the legislation. But 
it's certainly a win-win situation for the Park Service. They 
get to keep the increased revenues and we believe they have 
misinterpreted the legislation.
    And if it needs clarification, we would elicit their help 
in clarifying the language so that it cannot be misunderstood. 
Because our intent is certainly a noble intent.
    Mr. Faleomavaega. And I would like to react to the 
gentleman's comments. I'm trying, just for purposes of 
clarification, if the gentleman has property identified, any of 
those pieces of land which the proposed legislation addresses, 
and that, given the proper authority in terms of what the 
Congress wants done with those lands. Because my fear is that 
the Park Service is not going to--they're going to fight us 
tooth and nail unless Congress has land so-and-so tract 
whatever it is that my friend from Maryland wants to dispose 
of, then we'll do it accordingly, by law, rather than giving 
that discretionary authority to the Secretary or to the 
National Park Service to do what your proposed legislation 
intends to. I'm just suggesting that to the gentleman.
    Mr. Hansen. We would be very happy to work with the 
Committee to accomplish that goal.
    Mr. Faleomavaega. All right. Thank you.
    Mr. Hansen. Appreciate the comments from our colleagues. 
You're welcome to join us on the dais if you're so inclined. I 
know you're all busy, but we'd be happy to have you with us. 
Thank you very much.
    Our next panel--our next one panelist will be Destry 
Jarvis, Assistant Director of External Affairs of the National 
Park Service.
    Mr. Jarvis, you take the middle seat there. We appreciate 
it. And Mr. Jarvis will be referring to all four of these 
bills, briefly, we hope.

  STATEMENT OF DESTRY JARVIS, ASSISTANT DIRECTOR FOR EXTERNAL 
  AFFAIRS, THE NATIONAL PARK SERVICE; ACCOMPANIED BY SUZANNE 
LEWIS, SUPERINTENDENT, CHATTAHOOCHEE RIVER NATIONAL RECREATION 
                              AREA

    Mr. Jarvis. Yes, Mr. Chairman, I appreciate the opportunity 
to be here today. If I may, I'd like to introduce to the 
Committee three park superintendents who have me this morning.
    Mr. Hansen. By all means.
    Mr. Jarvis. Suzanne Lewis, superintendent of Chattahoochee 
River National Recreation Area; John Donahue, superintendent of 
George Washington Birthplace National Monument; and Martha 
Aikens, the superintendent of Independence National Historical 
Park.
    Mr. Hansen. Do you want them to join you? Why don't you 
have the superintendents come up?
    Mr. Jarvis. If it's OK with you, Mr. Chairman, I would love 
to have them here with me.
    Mr. Hansen. And if we have questions for the 
superintendents, we've got them right by a mike. Appreciate 
them being with us today.
    Mr. Jarvis. Shall I proceed in the order that you've 
presented the bills?
    Mr. Hansen. However you want to do it, Mr. Jarvis. We'll 
listen to you, sir.
    Mr. Jarvis. I will begin with H.R. 4141, the bill to amend 
the authority establishing the Chattahoochee River National 
Recreation Area. And I would say, Mr. Chairman, that the 
Department cannot support the bill as it is presently written. 
However, we well recognize and in fact have been working 
vigorously, Superintendent Lewis and her staff, to pursue the 
need for enhanced boundary authority in order to carry out the 
purpose of the 1978 Act that established the national 
recreation area and the 1984 amendment that amended the 
boundary.
    The problem here is that the counties in the northern 
portion of this NRA, the four northern counties--Cobb, Forsyth, 
Fulton, and Gwinnett--have been growing much faster than the 
national average and much faster than the Park Service's 
ability to cope with the notion, established in the 1978 Act 
and the 1984 amendment that we should protect the corridor 
along this 48-mile stretch of the river. In order for us to 
proceed, we recognize that the authority and the boundary drawn 
in those previous laws is insufficient and that we do need 
boundary legislation.
    The character of use has changed in recent years, as well. 
When the NRA was established, the thought was this is primarily 
a river-based, a water-based, recreation area. Most of the use 
would be concentrated in floating the river. In point of fact, 
as the Speaker noted and others, the superintendent would be 
happy to attest, most of the use now is land-based. People are 
coming to recreate, to picnic, to walk along the river banks, 
and the present boundary does not allow us to do that 
adequately. What is being pursued by the Park Service and the 
local area and the many political and private citizens in the 
area is a joint effort to protect this landscape, again, as the 
Speaker indicated.
    But let me come to the point of our concern with the bill 
as written, and that is that it includes two provisions, the 
so-called opt-out provision and the willing seller provision, 
that are, essentially, worse than existing law. We have pursued 
land acquisition and the management of this park for the last 
20 years with condemnation authority, but have never used it. 
It hasn't been necessary, up to this time. In general, the Park 
Service regards condemnation authority as a stand-by authority 
only to be used in the most severe instance of immediate threat 
to the integrity of the park. That has not happened at 
Chattahoochee River and I don't anticipate it happening, 
however we believe that having the authority in those emergency 
situations is essential to assure that we can do what Congress 
mandates in the establishment and management of these areas. 
The same is true with the willing seller provision. We believe 
that having the authority, even when we don't use it, is 
important.
    We fear that if the opt-out provision is included, given 
the rapidity of growth and the plethora of developers, that 
developers may even offer landowners a financial incentive to 
opt out, not even buying their property, but simply paying them 
to opt out. That may be perceived as an idle fear, but I think 
it's a real one that could occur and we want to have the 
opportunity to present this vision to the local people through 
public process and let them consider all their options on an 
equal basis.
    We are not proposing that we will go in willy nilly and 
condemn land. That hasn't happened and I assure you it wouldn't 
happen. But with these provisions, it ties the hands of the 
Park Service to achieve the vision that I think was 
contemplated both by the Speaker and by the original 
legislation in 1978.
    We would also like--there is a provision in the bill that 
suggest that a GMP be prepared on the additions. We would like 
for that provision to cover the entire NRA and do a new general 
management plan for the entire NRA, not just for the addition. 
Because of this change in use pattern, because of the change in 
land use around us, we think a new GMP for the entire park, if 
this legislation is enacted, is warranted.
    And that concludes my remarks on the Chattahoochee River.
    [The prepared statement of Mr. Jarvis may be found at end 
of hearing.]
    Mr. Jarvis. If I may turn to H.R. 3981, that adds the--or 
proposes to protect the Ferry Farm of George Washington's 
boyhood home as a boundary modification to George Washington's 
birthplace. The bill would authorize us to add this immediately 
to the boundary. We believe that, consistent with legislation 
that is pending before this Committee that has passed the 
Senate and the chairman's substitute to Title III of H.R. 1693, 
having to do with the new area study process, we believe that 
we should do a special resources study of this site before it 
is added or before it is considered by Congress for addition to 
the National Park system. We have done a preliminary 
determination of eligibility for nomination as a national 
historic landmark and I believe I can say that we believe the 
property to be nationally significant. We have not done a 
study, though, to determine whether it is feasible and suitable 
for management by the National Park Service.
    The bill authorizes us to acquire an easement over the 
property in a cooperative effort with the Kenmore Association 
and we believe that is a worthy thing to do. The property is 
under some threat. The property was, at one point, about to 
become a Wal-Mart store site and, through local initiative, the 
county and the State and the city of Fredericksburg, and many 
private citizens encouraged the Wal-Mart Corporation to move to 
another location in the area, which they have done and which, I 
think, from their point of view is probably a better site for a 
store. It also enables the Kenmore Association to manage this 
site appropriately and protect it.
    We think a partnership is warranted. We'd like to do the 
study before we decide how much management, if any, the Park 
Service undertakes in the future. And we believe that it merits 
the attention of this Committee in this way.
    [The prepared statement of Mr. Jarvis may be found at end 
of hearing.]
    Mr. Jarvis. If I may turn to H.R. 4109, to authorize the 
Gateway Visitors' Center at Independence National Historical 
Park and say that we certainly support this legislation. It may 
be unclear to the Committee exactly why this legislation is 
needed, since we don't normally seek authorization of a 
visitors' center within a unit of the Park System. This one is 
truly different in that the partnership with the Gateway 
Visitors' Center Corporation is what is needing the 
authorization.
    This corporation will engage in activities in this facility 
that would not normally be part of a Park Service operation. 
But because the general management plan for Independence saw a 
role for the Park Service in the region and in the city, not 
just in the boundaries of the historical park, we believe the 
partnership with the corporation is warranted and this 
legislation is necessary. The corporation and its operating 
entities within the visitors' center will be able to conduct a 
range of revenue-producing activities associated with the 
building and putting those revenues back into operation and 
maintenance of the building. Revenue-producing things that, for 
example, they might sell tickets to Philadelphia Phillies' 
baseball games or to other cultural events in the city outside 
the park and take proceeds from those ticket sales and put them 
into operation of the building. When the building is 
constructed, they will transfer title to it to the Park Service 
and we will share in the operating cost of the building to the 
extent that we would have costs in operating a visitors' center 
if we were the sole occupant.
    I think it's important to point out, it amply illustrates 
the point of partnership. The Phase I of the implementation of 
this plan is expected to cost $65.6 million. The visitors' 
center itself is a $30 million project of which $6 million is 
for an endowment for its operation and maintenance expenses. 
All of that money is in hand or firmly committed from private 
sources. All of that $30 million. Of the $65.6 million, only 
$3.5 million will be a Federal responsibility. And that was 
requested in the Federal--in the President's budget and is in 
both the House and Senate reported Appropriations bills for 
Fiscal Year 1999. So, essentially, with very little Federal 
commitment of resources, this new visitors' center to serve 
both the 3 million visitors to the park and all of the other 
visitors who will come to Philadelphia and the region around it 
will be accommodated in this great new facility.
    Another concern that has been raised is: You have a 
visitors' center. You know, what's wrong with it? Well that 
visitors' center was constructed nearly 30 years ago when 
Interstate 95 was viewed as the major access to the downtown 
part of the city and there was an exit ramp that was being 
contemplated that would lead right to the parking garage and 
the new visitors' center. After the visitors' center was under 
construction, the ramp off of 95 was canceled. So that that is 
not the way that two-thirds of the visitors to this park access 
it. It's isolated from two-thirds of the visitor base. Most 
people go directly to Independence Hall or the Liberty Bell. We 
believe a new visitor center is essential to the efficient and 
effective oper-

ation and this language--this authority is essential to our 
purposes.
    [The prepared statement of Mr. Jarvis may be found at end 
of hearing.]
    Mr. Jarvis. And if I may turn now to the final bill, H.R. 
4158. The Department strongly opposes enactment of this 
legislation, Mr. Chairman, and believes that we have in 
existing law sufficient authority to engage in the leasing or 
sale of properties within boundaries of units of the National 
Park System. In addition, there is language in Title VIII of 
your substitute to S. 1693 that expands our leasing authority, 
which we also support.
    What's objectionable about the current piece of legislation 
is that it goes beyond what's necessary or appropriate, both in 
its findings and in its actual authority that would be granted 
to the Park Service. Let me illustrate. There are 38 national 
historical parks, units of the National Park System, that would 
be covered by the bill as it is written. Of those 38, only 11 
have private rights retained within them--called use-in-
occupancy agreements. Of those 11 parks, there are 111 such 
retained use-in-occupancy rights. Of that 111, 75 are on the 
C&O Canal National Historical Park. Of those 75, 73 are in 
Washington County, Maryland. Of those, virtually all are 
properties that are within the boundary, with--more than within 
the viewshed; many of them lie between the Canal and the 
Potomac River.
    Within the 50-year flood plain, they were seriously damaged 
by the 1996 floods. Many of these are house trailers. Some of 
them are cabins. All of them, virtually, received serious 
damage.
    As they have been acquired over the last 20 years, and 
others like them--there were some 300, originally--we have been 
systematically removing them because they are incompatible with 
the purpose of this national historical park. And we have 
removed some in recent years as those use-in-occupancy terms 
expire. All of the remaining 75 use-in-occupancy term agreement 
will expire by 2001.
    One of those properties has been determined to be an 
historic structure and it will be retained. It currently is 
under a hardship agreement and, as long as that individual 
resides there, that individual will get an extension of that 
use-in-occupancy agreement. But in the other cases, we intend 
to remove those structures because they are incompatible with 
the purpose of this national historical park.
    [The prepared statement of Mr. Jarvis may be found at end 
of hearing.]
    Mr. Jarvis. I believe that is sufficient and I'd be happy 
to answer questions.
    Mr. Hansen. Thank you, Mr. Jarvis. We're honored to have 
the park superintendents with us at this time. Do you have any 
comment you'd like to make on any of these issues?
    Ms. Lewis. I'd be happy to answer any questions that you 
might have. I think that the Chattahoochee River National 
Recreation Area is an extremely important unit of the National 
Park System and that this bill provides language to set us on a 
course to continue that effort that the Speaker addressed this 
morning, with the exception of the two items that we have 
concern with.
    Mr. Hansen. Well, I hope it can be resolved. You folks are 
on the front line. I like to stumble into your parks 
occasionally, see what you're doing. I concur on these national 
recreation areas. I have one in my district called Glen Canyon 
National Recreation Area. It does get a little attention, I've 
noticed.
    Questions for the panel? The gentleman from American Samoa. 
Feel free to talk to your park superintendents, though.
    Mr. Faleomavaega. Thank you very much, Mr. Chairman. And I 
wanted to thank Mr. Jarvis again for his presence and the 
fellow superintendents for their appearance this morning.
    I just wanted to know if the proposal under the provisions 
of H.R. 4141 have set any--is this an unprecedented proposal to 
consider the opt-out provisions as well as the willing seller 
concept or--why is the National Park Service having problems 
with this? Is this the first time that such a proposal is 
giving this out for legislation? Or----
    Mr. Jarvis. It would be the first opt-out provision that 
we've ever had to deal with. There are other parks that have 
operated under willing seller only restrictions and they tend 
to be slower to come on-line, remain fractured and fragmented 
in ways that sometimes prove incompatible with public use, 
particular where a linear corridor is involved. It takes only 
one small blockage to disrupt the linear movement of visitor 
use.
    Superintendent Lewis, would you like to say anything about 
the opt-out clause?
    Ms. Lewis. I think being a local manager on hand, having 
just 2 years there and watching the tremendous growth that has 
occurred, we also share a concern that having to have private 
landowners currently make a decision that affects the long-term 
status of their land in less than 12 months is of concern to 
us. In an urban area, such as the Atlanta region, landownership 
is changing hands very rapidly in that area and, again, asking 
people to make such a short-term decision is problematic.
    Mr. Faleomavaega. And do you have a recommendation to cure 
this problem with an opt-out provision, as proposed in the 
bill, or do you just suggest that we don't need it or what do 
you suggest to improve it?
    Mr. Jarvis. Well, I think that----
    Mr. Faleomavaega. Is there a better option than opt out as 
well as willing seller?
    Mr. Jarvis. Certainly, simply deleting the opt-out 
provision would be what we would recommend. I think the 
chairman's opening remarks indicate a way to go as well. There 
is a witness later in the hearing who will present a proposed 
map, a partner that we've been working with in the local area. 
We would be very eager to get out to the public to discuss this 
at the earliest opportunity. Superintendent Lewis is committed 
to that. We want people to know what's being proposed. We want 
them to understand what their opportunities are. And we don't 
want them to lock themselves into a decision immediately that 
they might regret later on.
    Because we're not going to exercise condemnation authority 
willy nilly. This is going to be, for all intents and purposes, 
a willing seller acquisition program. But we don't want them to 
opt out before they may later decide that their best course of 
action is to be included. There is no opt in provision.
    Mr. Faleomavaega. OK. The bill also provides an 
authorization of $25 million. As I expressed an earlier concern 
about providing the money first and we haven't even authorized 
the--we, without even an authorizing legislation--and this 
seems to be the problem also and utilizing the Land and Water 
Conservation Fund. What is the National Park Service position 
on this?
    Mr. Jarvis. Well, Congress appropriates our funding. We 
have a process of looking at the land acquisition needs of the 
Park Service and submitting a priority list each year. The 
Congress regularly adjusts that to its liking and would do so 
on into the future and that is part of the way our government 
operates. We don't object to those kinds of things happening. 
We know that's part of the process.
    We do have our own priorities. We have units of the 
National Park System that have been authorized for many, many 
years that still have private lands that occasionally come up 
for sale and we'd like to buy them.
    Mr. Faleomavaega. With a $25 million authorization, where 
does the priority lines of the Chattahoochee River? And maybe 
the superintendent can share what her understanding is? How 
does it compare with the priorities within the whole National 
Park System as far the authorization for funding?
    Ms. Lewis. At the Chattahoochee River, a two-pronged 
strategy in that the existing boundary of 6,800 acres, of which 
the Park Service has acquired around 4,500. So the $25 million 
proposed appropriation is well targeted to complete the 
original acquisition to 6,800 acres. This legislation would 
allow us to once again pursue the Speaker's vision and that is 
to provide linear corridors in areas where we currently don't 
have authorized venues.
    Mr. Faleomavaega. I understand, Madam Superintendent. I 
know you are a willing supporter and I can fully appreciate 
that. But what I want to know from Mr. Jarvis is where does 
this fall in the line of priorities within the whole National 
Park System? In other words, all right, the Speaker needs $25 
million for Chattahoochee. How does this compare to hundreds of 
other parks and how do you rate the priority within the Park 
Service of this $25 million authorization that has been 
requested of us?
    Mr. Jarvis. Well, sir, the only time the Park Service 
prioritizes land acquisition is in the President's annual 
appropriation request, in the budget.
    Mr. Faleomavaega. Yes.
    Mr. Jarvis. And it was not in--this project was not in our 
Fiscal Year 1999 appropriation request for land acquisition. 
That does not mean that it isn't significant and that it 
wouldn't show up in future years. It's an important 
acquisition. But it's come on-line here since the President 
submitted his budget and the Congress, as I say, always makes 
its priority adjustments for us.
    Mr. Faleomavaega. On H.R. 3981, you suggest that we need to 
have a study. How long do you think it will take to complete 
this study if the National Park Service were to be authorized 
to do the study?
    Mr. Jarvis. If we are authorized to do the study, we 
believe we can do it within available funds for special 
resource studies. We would propose to begin it in Fiscal Year 
1999 and have it be completed in Fiscal Year 2000. Probably 
about a 14 to 16 month process. And provide the report to the 
Committee when it's completed.
    Mr. Faleomavaega. Can this be done internally without 
authorization for a study?
    Mr. Jarvis. Well, we've testified on the chairman's 
provisions of his substitute to S. 1693 both here and in the 
Senate and we believe that special resource studies should be 
authorized by the Congress and we'd like to have that 
authorization before we proceed.
    Mr. Faleomavaega. OK. On the bill, the H.R. 4109, you 
support the proposal. How does this contrast with the fiasco 
and the mess that we're in in Gettysburg National Park?
    Mr. Jarvis. Well, if I might--before I answer that, I'd 
like to ask Superintendent Aikens to describe briefly to you 
the general management plan and what it calls for at 
Independence and then I will contrast where we are with 
Gettysburg.
    Mr. Faleomavaega. Well, again, I'm not trying to cut the 
gentlelady off. I just want to say to Mr. Jarvis: Are we 
contradicting ourselves by way of policy?
    Mr. Jarvis. Not at all.
    Mr. Faleomavaega. I mean the Secretary's initiative, the 
policy of doing this thing on the strength of his own 
authority, and now we come here to say, let's do it 
legislatively. Is there a difference here?
    Mr. Jarvis. Not at all, sir. In the case of Gettysburg, 
this is a visitors' center that solely serves Park purposes, at 
Gettysburg. It was called for in the general management plan 
for Gettysburg. We've identified very high priority----
    Mr. Faleomavaega. So it's not going to be a circus? It's 
not going a circus or a theme park or popcorn at all?
    Mr. Jarvis. It's not going to serve a theme park--it's not 
going to serve non-Park purposes. In the case of Independence, 
we have a truly unique situation that is beyond the existing 
authority of the Park Service to pursue, so we need 
authorization to engage in this kind of partnership with the 
Gateway Visitors' Center Corporation.
    Mr. Faleomavaega. One more question, Mr. Chairman, if I 
may. I'm sorry; I didn't mean to prolong here. On H.R. 4158, as 
we had discussed it earlier from the gentleman from Maryland, 
Congressman Bartlett, you say that the National Park Service 
does not recognize surplus land. What if a bill were to be 
amended or adjusted to suggest that whatever parcels of land 
that need to be gotten out of the authority of the National 
Park Service, would you have any objections to that?
    Mr. Jarvis. Yes. Remember that Congress draws our 
boundaries.
    Mr. Faleomavaega. Right.
    Mr. Jarvis. And authorizes us to acquire private lands 
inside those boundaries. There are very few instances where we 
are given open-ended land acquisition authority to reach out 
cross-country and buy whatever becomes available. We are told 
what we can buy within our boundaries and we have bought as 
money has been available.
    None of that land is surplus. Those boundaries were drawn 
with great forethought by the Congress. Many times--I hope most 
times--based on studies done by the Park Service as to which 
lands were critical to the protection of that park. And 
protection is part of the purpose of the park. We don't simply 
protect the Old Faithful geyser, we have a bit of Yellowstone's 
ecosystem around it. And that is true of historical parks as 
well. Protecting the viewshed is a major purpose of the park. 
And Congress has drawn those boundaries so that we may protect 
what is in those boundaries. And we do so, in most cases, by 
land acquisition.
    I would also say that the Park Service is not mandated to 
acquire fee simple interest. We have the--in every place that 
we have acquisition authority, we can acquire less than fee. 
There is no place that Congress says, you will only buy fee 
simple. We usually do buy fee simple, simply because more often 
than not the cost of an easement is 90 percent of the value of 
fee simple. And in the case of properties that are interwoven 
within the primary resource, as in the case of the C&O Canal 
where you have properties lying between the towpath and the 
river, we cannot restore the character of that historical canal 
with trailers and cabins next to the towpath or between the 
towpath and the river. We have to----
    Mr. Faleomavaega. My time is running and I want to give the 
gentleman from Maryland the opportunity to detail the concerns 
that he has about the response of the Department. And so, Mr. 
Chairman, I thank you. I don't mean to----
    Mr. Hansen. I'd like to hear from the chairman--from the 
superintendent. She had a comment on this.
    Ms. Aikens. Oh, I thought you were talking about the 
superintendent from Chattahoochee. My name is Martha Aikens. 
I'm superintendent at Independence Park. And what I just wanted 
to say is that the whole concept for the Gateway Visitors' 
Center actually evolved through our GMP process, which included 
a very extensive public involvement process. We had close to 20 
public workshops, public meetings; we even included a televised 
town meeting in which we discussed all the relevant issues 
relative to how we would approach managing the park in the 
future.
    The regional concept for the Gateway Visitors' Center 
evolved out of the whole idea of how best to look at the whole 
visitor services concept for not only the park, but for the 
district. So we're very proud of the Gateway Visitors' Center 
concept. It has widespread public support. We involved not only 
the average visitor coming through the park, but we involved 
all of the communities that would be affected by the kinds of 
decisions that we make in the park. So we think that it is a 
very good concept and we hope that we can count on the 
Committee to support us.
    Mr. Hansen. Thank you.
    Mr. Faleomavaega. Mr. Chairman, if I may? I'd like to ask 
Mr. Jarvis to submit the land acquisition priority listing that 
you currently have at the National Park Service to be made part 
of the record. I certainly would like to have the members of 
the Committee to also have access to that listing. Thank you, 
Mr. Chairman.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. Thank you. Mr. Jarvis, on H.R. 4141, doesn't 
that opt-out provision under this bill only apply to the 
interim map? That's the way I read the bill.
    Mr. Jarvis. Yes. Yes, but once you opt out, you're out. And 
if we made adjustments in the map when the permanent map is 
prepared, there's no opt in provision.
    Mr. Hansen. But the opt-out provision does not apply to the 
permanent expansion map that your folks are going to do--what--
in the July 1, 1999?
    Mr. Jarvis. But if the landowners precipitously opt out in 
the meantime, then they're out.
    Mr. Hansen. Between that period.
    Mr. Jarvis. Or at least that's the way the bill is written 
now. There's no opportunity for them to opt back in.
    Mr. Hansen. I have some additional questions, but I first 
recognize the member of the Committee, Mr. Kildee from Michigan 
for 5 minutes.
    Mr. Kildee. Thank you, Mr. Chairman. Really, I enjoyed the 
testimony. Benefited from the testimony of the witnesses, but I 
have no questions at this time. I yield back the balance of my 
time.
    Mr. Hansen. Thank you. Mr. Bartlett, not a member of the 
Committee, is on the stand with us. We would recognize him for 
5 minutes if he has questions for this panel.
    Mr. Bartlett. Thank you very much and thank you for the 
courtesy of permitting us to sit here with you. Mr. Jarvis, our 
bill was really not meant to apply primarily to lands within 
the park. There are lands which you acquired to protect the 
viewshed of the park. It was meant primarily to apply to those 
lands. You kept applying it to lands within the park.
    Now the C&O Canal is a unique situation. And you mentioned 
the large number of structures there. Many of those structures, 
by the way, you have not acquired and as far as I know you have 
no intention of acquiring them. That is the Potomac Fish and 
Game Club where there are a number of cabins and so forth 
there.
    You made one statement which I'd like some explanation of. 
You've mentioned that you're tearing down these houses and so 
forth along the canal because they are incompatible with the 
purposes of the park. Now it's my understanding that the C&O 
Canal is an historic park. Is that correct?
    Mr. Jarvis. That's correct.
    Mr. Bartlett. It is not a wilderness park?
    Mr. Jarvis. That's correct.
    Mr. Bartlett. Then why are you intent on returning it to 
wilderness? You see, sir, when the C&O Canal was in operation, 
that was as far from wilderness as it could be. Because that 
was the most valuable land in Maryland, the land right along 
the park. It was farmed if it was farmable. It was warehouses. 
It was businesses. It was inns and so forth, because this was a 
major artery for commerce. This was not a wilderness area and 
what you are now trying to do is to return it to wilderness.
    I would have problem if you were to require--and, by the 
way, there were lots and lots of houses and businesses and 
farms that were within the viewshed of the C&O Canal, because 
this was the most valuable land and it was the most developed 
land in Mary-

land because this was the commercial route through Maryland 
until the railroad was built. So we are not, we are not 
preserving this as an historic park when we tear down these 
structures. Now if indeed you wanted to preserve it as an 
historic park, you would require the people who owned these 
structures to make them look like they would have looked when 
the canal was in operation.
    By the way, the local newspaper, which is not a member of 
that vast right-wing conspiracy, has taken an editorial 
position that these lands ought to be retained by the owners 
and that the structures ought to be there and their primary 
view is that this is security for the many, many people who 
travel on the canal.
    You know, this canal--most of the canals within the 
District that I have the honor of representing in the Congress, 
it is a national treasure, but, sir, it is not a wilderness 
park. And I've been there. I've seen what you're doing. You're 
tearing down these houses. You don't even remove the 
foundation. It grows up to briars. It looks just awful. If I 
would. And, you know, this is not a wilderness. We shouldn't be 
attempting to return it to wilderness.
    Now you'll have a witness in a few minutes who lives 70 
feet above the canal. You can't even see his house from the 
canal. There is no way that that could be involved with the 
preservation of the essence of this park. So there's a lot here 
and, sir, I would encourage you to go out there and to walk the 
canal as I have done and to see what's out there. Go to the 
Potomac Fish and Game Club. Go to these residences that are 70 
feet above the canal. You can't even see them from the canal.
    And yet you acquired these 25 years ago, essentially with a 
gun to the head of the people who owned them. And now you are 
forcing the people out at the end of their lease and tearing 
them down. I just need an explanation of these things so that 
our people can understand it.
    Thank you.
    Mr. Hansen. Was that a question?
    [Laughter.]
    Mr. Bartlett. That was a question.
    Mr. Hansen. Do you want to respond, Mr. Jarvis?
    Mr. Jarvis. Yes, I would, Mr. Chairman. I have been on the 
canal many, many times, on foot and on bike and in my car to 
the canal. And, although I'm not familiar with the particular 
property of the gentleman that you referred to that's 70 feet 
above the canal cliff, I would say that you are correct that we 
are not attempting to restore this to a, quote, ``wilderness,'' 
but it a historical park and, to the extent that there are 
historical structures, we absolutely want to maintain them and 
have them restored either by us or by a lessee to the 
appearance of the historical period.
    Most--the vast majority of the properties in question here 
are house trailers or cabins that have been constructed in 
modern times that cannot be made to look like historical 
structures. Many of them are in the 50-year flood plain and 
when the floods hit us--they did in 1996, as you all know--the 
effect is devastating and a great deal of clean-up effort has 
to go on after that.
    I am, I guess, a bit confused about areas outside the 
boundary that we may be acquiring and I'd be happy to look into 
it further. I believe that we're acquiring properties inside 
the boundary. And, unlike the C&O Canal where we acquire inside 
the boundary--and the other examples that you gave of places 
like Gettysburg and Antietam Battlefield--we are in fact 
working with farmers and landowners to purchase an easement to 
keep it as a farm and keep it in production because that is 
what it was at the time of those important battles. And we 
don't need or expect to acquire fee simple interest in those 
farms. But that is not the situation along the C&O Canal, as I 
understand it.
    I'd be happy to pursue this further, outside of this 
hearing.
    Mr. Hansen. Further questions? Mr. Faleomavaega?
    Mr. Faleomavaega. I have no further questions, Mr. 
Chairman. Again, I want to thank Mr. Jarvis and our 
distinguished superintendents for their presence here this 
morning and look forward to working with them and hopefully we 
could resolve some of the issues and problems that have been 
raised concerning the proposed bills. Again, thank you.
    Mr. Hansen. Thank you very much. We appreciate this panel. 
Thank you for your consideration. And we appreciate having your 
superintendents with us. It's always a privilege to have you. 
Appreciate the work that you do.
    Now we'll excuse you and go to the third panel. Our third 
panel is Margaret Tutwiler, James Pickman, Alan Front, and 
Blaine Weaver. Would they come forward, please? If we could 
limit you to 5 minutes, we'd really appreciate it. If you just 
have a great burning desire that you have to go a couple of 
minutes more, let me know. This light system in front of you is 
just like a traffic light. Green, you go. Yellow, you wind up. 
And red, if you run it, well, we bang the gavel on you.
    Ms. Tutwiler, we'll go to you first, please.

  STATEMENT OF MARGARET DEB. TUTWILER, MEMBER OF THE BOARD OF 
              TRUSTEES, KENMORE ASSOCIATION, INC.

    Ms. Tutwiler. And I'll be more than glad to accommodate 
you, Mr. Chairman. I'll be very brief.
    Thank you for this opportunity to be here today to testify 
on behalf of the board of trustees of the Kenmore Association 
in behalf of bill H.R. 3981. As Chairman--Congressman Bateman 
said earlier today, Kenmore is located in historic 
Fredericksburg, Virginia, which is the home of George 
Washington's only sister Betty. It is one of our nation's 
oldest house museums, built in 1775. The preservation of the 
Kenmore house was among the first national preservation 
efforts, second only to the effort to save Mount Vernon. In 
1922, local Fredericksburg citizens joined in raising funds to 
purchase the historic house and the grounds as a sacred trust, 
thereby saving the house from destruction.
    The Kenmore Association was incorporated in May 1922 and 
was charged with the perpetual stewardship, maintenance, and 
management of the Kenmore house. In 1926, the Kenmore Board of 
Regents was created to ensure the preservation of this 
property. Today, with over 100 women representing all 50 
States, Great Britain, and France, the board of regents 
continues to guide the Kenmore Association's activities, 
educational programs, and fund-raising efforts. Furthermore, 
Kenmore is governed by a 16-person board of trustees comprised 
of businessmen and women from throughout the United States. 
Kenmore house is open year-round and has thousands of visitors 
through it every year.
    In addition to the colonial artifacts found on the grounds 
of Kenmore and the unparalleled early American craftsmanship in 
the house itself, the Kenmore property is of considerable 
historical significance. George Washington's sister Betty lived 
at Kenmore with her husband Colonel Fielding Lewis. During the 
American Revolution, Colonel Lewis was one of the chief 
financial backers of General Washington's army.
    Only a few generations later, Kenmore experienced the 
ravages of the Civil War. In fact, it served as a hospital for 
the Union Army.
    The Kenmore house is an important part of our American 
heritage because of its associations with our nations' founding 
fathers, as has been pointed out earlier here this morning. 
It's importance as a splendid example of colonial art and 
craftsmanship and its witness to American life for more than 
220 years.
    In 1996, the Kenmore Association led one of the most 
important preservation battles of recent years: the fight to 
save George Washington's boyhood home, Ferry Farm, from 
commercial development. As you know, Ferry Farm is located just 
across from the Rappahannock River in Fredericksburg. It's 
where George Washington spent his formative years, ages roughly 
6 to 20. In 1996, a commercial retail entity attempted to 
purchase and develop a large portion of Ferry Farm. The Kenmore 
Association stepped in and purchased the entire Ferry Farm 
property in order to save the historical farm from commercial 
development.
    George Washington's Ferry Farm is a unique site. Ferry Farm 
is the last place associated with George Washington that has 
not been protected for the American people. The preservation of 
George Washington's Ferry Farm is a compelling preservation 
undertaking, as both the Congressmen and the Park Service have 
testified to this morning.
    It was the place that prepared Washington to overcome the 
challenges of his life, experiences that shaped the character 
that made him the most revered of our founding fathers. At 
Ferry Farm, the character was formed that helped shape our 
nation.
    We need the National Park Service to help us protect Ferry 
Farm for future generations by acquiring, as has been pointed 
out, an easement ensuring that George Washington's Ferry Farm 
will be protected forever. Working in conjunction with the Park 
Service in a unique public-private stewardship, the Kenmore 
Association, with over 70 years of preservation experience can 
protect and manage this land of extraordinary importance to our 
nation's heritage. The passage of the proposed legislation will 
ensure Ferry Farm's safekeeping.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Tutwiler may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much. Mr. Pickman.

 STATEMENT OF JAMES PICKMAN, PRESIDENT, GATEWAY VISITOR CENTER 
                          CORPORATION

    Mr. Pickman. Mr. Chairman, thank you for the opportunity to 
testify on behalf of H.R. 4109, the bill to authorize the 
Gateway Visitor Center at Independence National Historical Park 
in Philadelphia. My name is James Pickman. I am the president 
of the Gateway Visitors' Center Corporation, which is a non-
profit, tax exempt organization formed to work in partnership 
with the National Park Service to develop and operate the 
Gateway Visitor Center.
    The idea for a regional visitor center on Independence Mall 
emerged from two separate tracks that came together to form the 
partnership that's here before you today. As Mr. Jarvis and 
Superintendent Aikens testified, the concept for a regional 
visitor center emerged from the Park Service's general 
management plan, which was developed over a 4-year period from 
1993 to 1997, to enhance the visitor experience, to be a 
catalyst for the revitalization of Independence Mall, and to 
strengthen the Park Service's partnerships with the surrounding 
community.
    At the same time that this was going on, the Pew Charitable 
Trusts, which is based in Philadelphia--it's one of the largest 
philanthropies in the country--was exploring how the 
Philadelphia region could take better advantage of the numerous 
attractions in that region to enhance the tourism industry and 
spur economic growth and job creation. One of the conclusions 
that came out of that exploration was the need for a new 
regional visitor center. And they thought that Independence 
Mall would be a perfect location because it also adjacent to 
two of the most popular attractions in the region: Independence 
Hall and the Liberty Bell.
    So there were these two separate processes going on that 
reached similar conclusions. In 1995, the two joined forces to 
test the feasibility of such a center and when that proved 
affirmative, they moved forward together to try and take this 
vision and turn it into a reality.
    Let me briefly describe the partnership between the Park 
Service and the Gateway Visitor Center Corporation. The Gateway 
Visitor Center Corporation is a non-profit organization that 
represents a range of the stakeholders in the region. Its board 
consists of Mayor Rendell, the deputy chief of staff to 
Governor Tom Ridge, a senior representative of the Pew 
Charitable Trusts, and other representatives from the region. 
The corporation is also in the process of adding three board 
members to bring a national perspective, including historians 
and preservationists.
    The agreements that are being worked out now with the Park 
Service--which govern the design and construction and the 
operation of the center--call for a true partnership and, to 
make one general comment on those agreements, it's that the 
Park Service gets the right to approve of almost everything 
from the design of the building to the content of the exhibits 
and to any merchandise that would be sold in the gift shop.
    The visitor center, as was discussed earlier, will be 
located on Park Service property. It will be owned by the 
National Park Service and it will the prime orientation and 
information facility for the park, for the adjacent historic 
district, for the city, and the region. Its purposes are to 
inform, to excite, to stimulate, to educate, and set visitors 
on their way, either right on the doorstep--at Independence 
National Historical Park--or beyond it in the city and the 
region. In addition, the visitor center is a pivotal component 
of the remaking, the complete remaking, of Independence Mall. 
The mall is a 3-block, 15-acre open space that was created in 
the 1950's and 1960's that I believe has been a failure in its 
operation. The desire to revitalize Independence Mall grew out 
of the Park Service's general management plan process.
    In terms of funding, the estimated cost of the visitor 
center is, as was stated, $30 million, with $6 million of that 
being set aside as an endowment for operations. All of that 
money is fully committed or in hand and half of it is from 
private philanthropies, led by the Pew Charitable Trusts. The 
other half is from the Commonwealth of Pennsylvania and the 
city of Philadelphia. There are no Federal dollars.
    In terms of operations, which is not the subject here 
today, as was stated by Mr. Jarvis, there will be a division 
among the stakeholders and I can just assure you it will be 
done on a basis of fairness. No one's going to be subsidizing 
someone else. On the preliminary numbers that we've run, I can 
assure you that any contribution of the Park Service will be 
less than half of the operating costs. That we know for sure.
    Let me just conclude by just mentioning why H.R. 4109 is 
critical to going forward. First, as was said, it allows the 
center to engage in activities that relate to things outside of 
the National Park's boundaries, in effect, to be a regional 
visitor center. For example, we can promote attractions in the 
region, such as Valley Forge or the Philadelphia Museum of Art.
    Secondly, it allows the center to engage in revenue-
generating activities such as charging commissions on 
reservations for hotels in the region or even renting the 
facility after hours for receptions. Let me just make clear 
that there will be no charge for visitors to come into the 
center. That's absolutely not going to happen. And, third, it 
allows the center to retain any earnings to help support its 
operations.
    Not only is the enactment of this legislation vital to the 
realization of this vision, but the timing is also very, very 
important. The funders committed $30 million for a regional 
visitor center and it's very hard to go forward with any 
seriousness unless we know that that type of facility is 
plausible. So we urge very strongly the timely enactment of 
this legislation. I thank you very much for this opportunity.
    [The prepared statement of Mr. Pickman may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Pickman.
    Mr. Front.

   STATEMENT OF ALAN FRONT, SENIOR VICE PRESIDENT, TRUST FOR 
                          PUBLIC LAND

    Mr. Front. Thank you very much, Mr. Chairman. My gratitude 
is twofold. First, I appreciate the expeditious way that the 
Subcommittee has approached this legislation, as I hope to 
explain in a minute. That kind of dispatch is both necessary 
and warranted in this case. And second, I am grateful for the 
chance to appear be-

fore you again today, representing my organization, The Trust 
For Public Land, but in a larger sense also representing a very 
broad and large partnership of interests that are working 
together to, as you heard Speaker make reference to earlier, to 
protect a very special resource area.
    I'd like to discuss the work that that partnership is doing 
and why H.R. 4141 is so vitally necessary to its completion. 
Before I do that, I'd like to spend just a moment sharing with 
you my own and my organization's introduction 10 years ago to 
the Chattahoochee National Recreation Area, which 
Superintendent Lewis will at least recall the wild stories.
    To do that I ask you to imagine the intense suburban 
subdivision development on the border of the Atlanta city 
limits. And place into that picture a small, very rustic farm, 
with a hand-hewn cabin, no electricity, a wood stove for heat, 
in which resides to this day a gentleman, a true gentleman 
named Daisy Hyde, who is advancing in years and was even 10 
years ago. I believe that he is approaching, if he hasn't past, 
his 90th birthday.
    Mr. Hyde found himself with a critical in-holding in the 
existing boundary of the Chattahoochee National Recreation 
Area. He also found himself facing substantial tax obligations 
that led him to decide to sell his property to the Park Service 
with a provision that would allow him to maintain his residence 
and maintain the farming lifestyle that he had conducted there 
for many of those 80-some odd years. The Trust For Public Land 
worked with Mr. Hyde to arrange just such a transaction and he 
paid off his obligations. Today I believe that he is the only 
mule farmer in Atlanta, or at least he is the dean of the 
Atlanta mule farming community.
    We knew very little about the Chattahoochee at that time. 
We have since learned very emphatically that this area is 
important; that Mr. Hyde's river is in fact probably the most 
complex and critical environmental issue facing Atlantans. 
Again, you heard the Speaker talk about its importance in 
manifold ways. It is critically important for park use and 
visitor demand. It's critically important for water quality for 
the Atlanta community, and, in fact, for a swath of the south 
that stretches down to Alabama and Florida. And it's important 
for economic development because this is the lifeblood of that 
region.
    We have taken a straw poll. Years ago we took a straw poll 
in Atlanta and asked various communities--the social justice 
community, civic leaders, the philanthropic community, the 
business community--what's the most important thing we could 
work on together? And the unanimous answer was the 
Chattahoochee River. Out of those discussions grew this 
partnership which is leviathan in size and Herculean in 
strength and which, I believe, is providing assistance and 
prepared to provide assistance to the Park Service in truly 
unprecedented ways.
    Twenty years ago, as Superintendent Lewis mentioned, this 
Committee created the Chattahoochee National Recreation Area. 
And in that creation, established a series of 12 or so units 
along the 48-mile stretch of the river. The pearls that 
currently don't have a necklace threading them together, but a 
number of very important areas along the river. Time has 
virtually stood still if you visit the Hyde farm, but the 
Atlanta real estate market moves on a very different clock. So 
many of the areas within that 6,800-acre boundary have already 
been developed by private landowners who exercised their 
private property rights and did not wait for Park Service 
acquisition.
    As a result, inside the boundary are now some lands that 
are inappropriate for Park Service consideration. At the same 
time, there are park-quality lands that run along the river and 
in fact create that necklace between the pearls, lands that the 
Park Service currently has no ability to reach out and work on, 
but are within the designated area of a Federal or national 
interest, but the Park Service cannot address. And, as the Park 
Service has recognized that and the partnership has recognized 
that, they've also recognized that there is an attendant water 
quality benefit that the Park Service can help to contribute to 
along with the benefits that can be derived from creating a 
green-line park along the river, a park that will actually 
remedy some of the truncated recreational experiences that 
visitors face when they go to these units, but can't go any 
further.
    The Speaker alluded to the partnership and what it was 
doing. I would just repeat that Governor Zel Miller and the 
State of Georgia have committed $15 million of their money to 
help stretch the capacity of the Park Service and create--not 
only a greenway, but also to establish water quality 
protections for the citizens of Atlanta and people well beyond. 
That private landowners have been extremely willing to 
participate in this program, but also, like those private 
landowners who have already developed their property, they will 
not wait indefinitely. And the private philanthropic community 
already has produced commitments of $25 million to support this 
effort. Twenty-five million dollars that is contingent on 
Federal action on the greenway.
    And so, both because of the rapidity of real estate 
turnover and because of the availability of this private and 
State largess which we cannot count on unless the Federal 
Government matches the commitment that's being made by non-
Federal partners, we are very hopeful that the Committee will 
act expeditiously on H.R. 4141 and that we'll be able to 
realize this vision and cut the ribbon the Chattahoochee real 
soon.
    As a last note, there has been a good deal of discussion 
about the map for the Chattahoochee River and I have brought a 
map with me that, not intending to tease this panel, is not 
quite ready for submittal into the record. But I wanted at 
least to demonstrate that there really was a map out there 
somewhere. It's being tuned up right now and, in a matter of 
days, we do plan on submitting this as a map that would be 
referenced by the bill and I believe that this is an 
outstanding way to resolve what I've heard to be one major 
controversy in this legislation.
    [The information referred to may be found at end of 
hearing.]
    Mr. Front. Thank you very much.
    [The prepared statement of Mr. Front may be found at end of 
hearing.]
    Mr. Duncan. [presiding] Thank you, Mr. Front, for your 
testimony.
    Before we go to Mr. Weaver, I understand that Ms. Tutwiler 
needs to leave, and, Mr. Faleomavaega, do you have any 
questions or comments for Ms. Tutwiler?
    Mr. Faleomavaega. Yes, I don't have any questions. I just 
want to compliment her presence here, Mr. Chairman. It 
certainly has been my privilege and honor to work with Ms. 
Tutwiler and her tremendous contributions to our nation 
certainly as a high official with our State Department in the 
years that she served with former Secretary Jim Baker. We're 
very, very honored to have her be here.
    And I'm sure that she's heard what the National Park 
Service has expressed their concerns about the need of a 
feasibility study. My only hope is that this feasibility study 
doesn't end up another 5 years and still the project is not 
completed. But I sincerely hope that maybe, Ms. Tutwiler, we 
can work together with this legislation and see if the National 
Park Service could help us expedite what is needed to make sure 
that the feasibility study can be implemented and doing so in a 
very short order.
    Again, thank you very much for your coming here, Ms. 
Tutwiler.
    Ms. Tutwiler. Thank you very much. And thank you for your 
comments and letting me return to a meeting in the private 
sector that is very important. I appreciate it very much.
    Mr. Duncan. Well, thank you. Go back and tell your other 
trustees that I said you did a great job and you represent them 
well.
    [Laughter.]
    Ms. Tutwiler. Thank you very much.
    Mr. Duncan. Thank you very much.
    Mr. Pickman. Mr. Chairman, can I ask your indulgence?
    Mr. Duncan. Yes.
    Mr. Pickman. There's a board meeting of the Gateway Visitor 
Center Corporation in Philadelphia, and if I can catch a 12 
train, that would be terrific.
    Mr. Duncan. Yes, sir.
    Mr. Pickman. But if there are questions that you need to 
keep me----
    Mr. Duncan. No, no, no, that's--no, I understand. I 
understand.
    Mr. Faleomavaega. Mr. Pickman, as I said before to our 
colleagues when they proposed the bill: If it's in the bag, 
shut up and move on. And so, I think you're more than happy to 
leave us. Be that as it may. But we appreciate your testimony.
    Mr. Pickman. You know, I asked counsel before I got up here 
whether I should abbreviate my abbreviated statement and he 
said, no, go ahead and give it, so I was listening to you, sir. 
And I thank you very much.
    Mr. Duncan. Thank you very much for being with us and, Mr. 
Weaver, you can go ahead and begin your testimony at this time.

   STATEMENT OF BLAINE WEAVER, RETIRED FINANCIAL INSTITUTION 
                           EXECUTIVE

    Mr. Weaver. Good morning, Mr. Chairman and Committee 
members. Thank you for allowing me to make a presentation 
today, July 16, 1998. My name is D. Blaine Weaver and I reside 
in Washington County, Maryland, in the Sixth Congressional 
District, represented by Congressman Roscoe G. Bartlett.
    Today I am here to advocate support for House Bill number 
4158. Why am I doing this? Because I have 5 grandchildren, ages 
6 to 10 years old, who just completed a week of fishing and 
water skiing at our summer home in Washington County, Maryland, 
along the C&O National Historic Park. Since they enjoy these 
activities very much, their question to me and mine to you is: 
Why won't we be able to use this property after the year 2000?
    Our property tract number 30-109 is located along the 
Potomac River, above dam number 4 where there is no canal and 
all the properties in this area are high above the river, 
approximately 60 to 75 feet. It's never been used by the public 
or it's never been used by the Park Service because this 
property, again, is high above the river and the towpath 
adjoins immediately to the river.
    Many of the adjacent lessees--or the right-to-use, as the 
Park Service likes to call it--and I feel that the Department 
of the Interior employees in the early to mid-1970's used heavy 
duress tactics, always with the threat of condemnation, to 
allow the Federal Government to obtain these properties. Our 
only option was to sell and have the use or retain the use and 
the property condemned. In our case, we were not really paid a 
fair market price for the property and the 25-year lease fee 
was deducted along with the salvage fee at the time of the 
sale, leaving the net proceeds to us. Any one knowing the 
future value of money knows the Federal Government received a 
real bargain.
    Also, 23 years ago, in this same time period, I was misled 
by the statements issued by the Park Service acquisition 
officer that they would procure all adjoining property along 
the entire 184-mile length of the canal and it would become the 
C&O Canal National Historic Park. This did not occur. I can 
cite many instances where the properties were not procured or 
very favorable conditions were granted. And this occurred all 
along the canal from Georgetown to Cumberland, Maryland.
    I'll cite a few of these instances. Starting in Georgetown, 
there is Water Street, between the restored C&O Canal and the 
Potomac River with many restored offices, condos, restaurants, 
and businesses.
    In our immediate area, above dam number 4, Jack Berkson 
deeded 17 feet along the Potomac River, which was actually the 
towpath, of his 90 acres to the government. He reserved the 
right to cross the towpath, place docks for 300 feet along the 
river during the summer months for a period of 99 years. Mr. 
Berkson is currently developing 90 acres in lot sites for 
residential housing.
    Also above dam No. 4, Mr. Perini did not give up any of his 
land and now has a very beautiful residence immediately above 
the river and towpath. In addition, the property was subdivided 
into residential lots.
    Also above dam No. 4, as we heard earlier from Congressman 
Bartlett, the Potomac Fish and Game Club, which has 550 
members, has numerous cabins and trailers situated between the 
canal and the Potomac River.
    The National Park Service has changed the original 
boundaries of the C&O Canal by acquiring our properties, which 
were not part of the original C&O Canal.
    Also the National Park Service declared that they were 
going to turn the properties back to nature, as the lessees--or 
the right-to-use--expired. However, in our immediate area, the 
foundations and various types of junk remain on these 
properties. Also, when the canal was in operation, the property 
owners along the river interacted with the canal workers. We 
have kept this tradition alive for people using the towpath by 
providing assistance, direction, and emergency help when 
needed. Last week, a hiker from the Netherlands lost his 
backpack with the credit cards and money and he asked to use 
the cell phone to call his bank in the Netherlands. I referred 
him to a regular phone approximately a mile away.
    Apparently, the National Park Service will issue blinders 
to all the bicyclists and hikers so that they do not see all 
the non-nature properties still along the C&O Canal and the 
towpath. Lo and behold, if they look across the Potomac River 
to the West Virginia landscape, they will see all kinds of non-
nature property and activity, which includes new private boat 
ramps, boat docks, all types of housing from mobile homes to 
high-priced residential homes. I wonder if the National Park 
Service is planning also to turn the West Virginia side of the 
Potomac River back to nature?
    This property has been in our family 41 years. Tract number 
38-109. I request your assistance in obtaining a 99-year lease 
extension, right-of-use-and-occupancy, or the opportunity to 
buy back the land from the government. All the other lessees 
that I've spoken to want the same opportunity to do the same 
thing with their properties that was acquired by the Park 
Service back in the mid-1970's.
    Thank you very much for this opportunity to testify at this 
hearing and we sincerely seek your assistance and the 
Subcommittee's assistance in supporting H.R. 4158. Thank you.
    [The prepared statement of Mr. Weaver may be found at end 
of hearing.]
    Mr. Duncan. Mr. Weaver, thank you very much. I noticed in 
one of the newspaper articles that a representative of the 
Sierra Club referred to this proposal as a radical right-wing 
proposal. Are you a radical right-wing extremist of some type?
    Mr. Weaver. No, sir. I've worked hard all my life. I 
started out working when I was 13 years old at $3.50 a week. I 
have acquired my assets and owe no money at this time and have 
no radical, right-wing leanings whatsoever. I do listen to Rush 
Limbaugh, so maybe that might affect me a little bit, sir.
    Mr. Duncan. Well, I can tell you that more and more people 
across the country are beginning to realize that the Sierra 
Club, which used to be a moderate, mainstream organization, has 
gone very radically to the left and is very quickly losing much 
of the good reputation that it once had.
    We have a vote going on and so we're going to have to stop 
this hearing at this time, but I do want to say that we very 
much appreciate your being here today and the sincerity with 
which you've testified and you have a great Congressman in 
Congressman Bartlett, who is attempting to help you in every 
way that he possibly can. And we'll go ahead and stop the 
hearing at this time because of the vote we have, but thank you 
very much for being here. And that will conclude the hearing.
    [Whereupon, at 11:53 a.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
 Statement of Margaret Deb. Tutwiler, Member of the Board of Trustees, 
                       Kenmore Association, Inc.
    Mr. Chairman thank you for the opportunity to appear before this 
Committee today and testify on behalf of H.R. 3981. I am pleased to be 
here representing the Board of Trustees of the Kenmore Association.
    Kenmore, located in historic Fredericksburg, Virginia, is the home 
of George Washington's only sister, Betty. It is one of the nation's 
oldest house museums--built in 1775. The preservation of the Kenmore 
house was among the first national preservation efforts, second only to 
the effort to save Mount Vernon. In 1922, local Fredericksburg citizens 
joined in raising funds to purchase the historic house and grounds as a 
``sacred trust,'' thereby saving the house from destruction.
    The Kenmore Association, Inc. was incorporated in May 1922 and was 
charged with the perpetual stewardship, maintenance and management of 
the Kenmore house. In 1926, the Kenmore Board of Regents was created to 
ensure the preservation of the property. Today, with over one hundred 
women representing all fifty states, Great Britain and France, they 
continue to guide the Kenmore Association's activities, educational 
programs, and fund-raising efforts. Kenmore is governed by a sixteen-
member Board of Trustees comprised of businessmen and women from 
throughout the United States. Kenmore is open year round as a house 
museum and has over twenty-five thousand visitors annually.
    In addition to the colonial artifacts found on the grounds and the 
unparalleled craftsmanship in the house itself, the Kenmore property is 
of considerable historical significance. George Washington's sister, 
Betty, lived at Kenmore with her husband Colonel Fielding Lewis. During 
the American Revolution, Colonel Lewis was one of the chief financial 
backers of General Washington's army.
    Only a few generations later, Kenmore experienced the ravages of 
the Civil War. It served as a hospital for the Union Army.
    The Kenmore house is an important part of our American heritage 
because of its association with our nation's Founding Fathers, its 
importance as a splendid example of colonial art and craftsmanship, and 
its witness to American life for more than two hundred twenty years.
    In 1996, the Kenmore Association led one of the most important 
preservation battles of recent years--the fight to save George 
Washington's Ferry Farm from commercial development.
    Ferry Farm, located just across the Rappahannock River from 
Fredericksburg, is where George Washington spent his formative years--
roughly ages six to twenty. In 1996 a commercial retail entity 
attempted to purchase and develop a large portion of Ferry Farm. The 
Kenmore Association stepped in and purchased the entire Ferry Farm 
property in order to save the historical farm from commercial 
development.
    George Washington's Ferry Farm is a unique site. Ferry Farm is the 
last place associated with George Washington that has not been 
protected for the American people. The preservation of George 
Washington's Ferry Farm is a compelling preservation undertaking.
    Every American knows the fabled stories associated with this 
historic place. For instance, Ferry Farm is where the legendary story 
of the cherry tree took place. The young Washington's words--``I cannot 
tell a lie''--are fixed in our national memory. Ferry Farm is more than 
the setting for fables. It was the place that prepared Washington to 
overcome the challenges of his life--experiences that shaped the 
character that made him the most revered of our Founding Fathers. At 
Ferry Farm the character was formed that helped shape our nation.
    We need the National Park Service to help us protect Ferry Farm for 
future generations by acquiring an easement--ensuring that George 
Washington's Ferry Farm will be protected forever.
    Working in conjunction with the Park Service, in a unique public/
private stewardship, the Kenmore Association with over seventy years of 
preservation experience can protect and manage this land of 
extraordinary importance to our nation's heritage. The passage of this 
proposed legislation will ensure Ferry Farm's safe keeping.
    Mr. Chairman, thank you for your time and attention. This concludes 
my prepared remarks. I would be pleased to answer any questions you may 
have.

[GRAPHIC] [TIFF OMITTED] T0342.005

[GRAPHIC] [TIFF OMITTED] T0342.006

[GRAPHIC] [TIFF OMITTED] T0342.007

   Statement of James Pickman, President, The Gateway Visitor Center 
                              Corporation
    Good morning, Mr. Chairman and members of the Subcommittee. I thank 
you for the opportunity to testify on behalf of H.R. 4109, a bill to 
authorize the Gateway Visitor Center at Independence National 
Historical Park (INHP) in Philadelphia. I am the president of the 
Gateway Visitor Center Corporation, a nonprofit, Section 501(c)(3) tax-
exempt organization dedicated to working in partnership with the 
National Park Service to develop and operate the proposed center. The 
Gateway Visitor Center, or GVC, is intended to serve as the primary 
visitor orientation facility for the national park, the surrounding 
historic district, the City of Philadelphia, and the greater 
metropolitan region. It will be located within INHP boundaries on 
Independence Mall, just north of Independence Hall and the Liberty 
Bell. H.R. 4109--enacted on a timely basis--is essential to the 
realization of this regional gateway mission.
    In my statement this morning, I would like to describe briefly how 
the GVC was conceived by the National Park Service and other 
stakeholders, the partnership that will be responsible for the center's 
development and operation, the partnership's vision for the GVC, how 
the facility will be funded, and the critical need for H.R. 4109.

Background

    The concept of a regional visitor center on Independence Mall 
emerged from the convergence of two parallel explorations--one 
conducted by the National Park Service and the other by The Pew 
Charitable Trusts.
    Through its general management plan process begun in 1993 and 
completed in April 1997, the National Park Service (NPS) undertook a 
comprehensive review of the future management and use of INHP, with a 
focus on Independence Mall. This three block, 15-acre mall was created 
in the 1950's and 1960's through the demolition of over 140 buildings 
in order to provide an appropriate setting for Independence Hall and 
create a vibrant, public urban space. Unfortunately, these objectives 
have not been realized. The Park Service review and resulting plan, 
which received loud and clear public support, calls for a complete 
redoing of Independence Mall with the development of a new regional 
visitor orientation facility as a central element. Today's testimony by 
Destry Jarvis of the NPS provides greater detail on the Park Service's 
general management plan process and content.
    At the same time as the Park Service was conducting its review, the 
Philadelphia-based Pew Charitable Trusts, one of the nation's largest 
philanthropies, concluded from a study it commissioned that greater 
Philadelphia has been missing an opportunity for significant economic 
development by failing to cultivate its potential in the tourism 
industry. To address this need, the Trusts pursued two related 
objectives. The first--increasing the marketing of the region's 
existing attractions--resulted in the establishment of the Greater 
Philadelphia Tourism Marketing Corporation, a $12 million partnership 
among the Trusts, the City of Philadelphia and the Commonwealth of 
Pennsylvania. The second objective was to create a magnificent regional 
orientation facility on Independence Mall. The Trusts concluded that 
although INHP contains the most enduring of historical treasures, its 
existing visitor center is poorly located and is inadequate for 
accommodating and orienting significant numbers of people to the park 
and other city and regional attractions. And there was clear consensus 
among all interested parties that a new visitor center needed to be 
constructed right on the mall--a location more accessible to the 
Liberty Bell and Independence Hall (the leading attractions in the 
Philadelphia region), as well as to major travel arteries.
    As a result of their similar conclusions, in the summer of 1995, 
the Trusts and NPS joined forces to explore together the feasibility of 
a new visitor orientation facility on Independence Mall. After a 
rigorous due diligence analysis that affirmed the center's feasibility, 
the Pew Trusts, with NPS support, proceeded to seek funding for a new 
Gateway Visitor Center--a facility that would be owned by NPS and serve 
as the visitor center for INHP and for the city and surrounding region 
as well.

The Partnership

    Consistent with its genesis, the development and operation of the 
GVC will reflect the partnership between the National Park Service and 
other city and regional stakeholders, the latter represented by the 
recently established Gateway Visitor Center Corporation (GVCC). As 
noted above, GVCC is a nonprofit, Section 501(c)(3) tax-exempt 
corporation created solely for the purposes of working with the 
National Park Service to develop and operate the GVC. Its board of 
directors consists of the following members:

        Edward G. Rendell, mayor of Philadelphia
        Maria Keating Titelman, deputy chief of staff to Governor Ridge
        Thomas Donovan (chair), retired vice chair of Mellon Bank and 
        chair of the Greater Philadelphia Tourism Marketing Corporation 
        (GPTMC)
        Donald Kimelman, director of the Venture Fund, The Pew 
        Charitable Trusts
        Meryl Levitz, president of GPTMC.
    Three additional board members will be elected shortly, 
representing a national perspective, such as a renowned historian 
specializing in 18th century America. NPS works closely with the GVCC 
board. Representatives of the Park Service attend each meeting as 
nonvoting participants, and they will continue to do so in the future.
    The design, construction, and operation of the center will be 
governed by partnership agreements between NPS and GVCC. In essence, 
NPS will have the right to approve of all aspects of the facility's 
design and to assure that the construction conforms to the approved 
design. Once completed, the GVC will be donated to NPS. The facility 
will be operated and managed jointly on a long-term basis by the GVCC 
and NPS. An operating partnership agreement will define the 
relationship between NPS and GVCC on a number of items of particular 
concern to both parties, such as ongoing liaison between the GVCC and 
the park, content of GVC exhibits, ticketing for Independence Hall, the 
presence and role of park staff in the GVC, and the management and 
oversight of first amendment activities in or near the GVC. In 
addition, the agreement will set forth policies for addressing such 
matters as the sale of merchandise, the rental of GVC space, the 
display and content of written materials, and the maintenance of the 
facility.

Gateway Visitor Center

    In furtherance of the joint vision of NPS and GVCC, the Gateway 
Visitor Center is intended as the region's primary point of visitor 
orientation by providing a range of quality services and programs. 
Without overshadowing INHP's remarkable buildings as well as other 
nearby treasures, the center would be an attraction in its own right. 
It would offer visitors an exciting, informative experience before they 
set off to encounter the park, the city and the region. A theme of 
heritage would help integrate the services and programs of the center 
and its surroundings. There would also be an emphasis on the virtues of 
modern Philadelphia, including the world-class museums, theaters and 
other cultural and leisure-time amenities.
    Through personal services, exhibits and displays, visitors will 
gain a contextual understanding of the park and its surroundings, and 
will be motivated to develop personal itineraries that take advantage 
of a variety of resources available throughout the city and region. 
Visitors will also be able to gain information and tickets to tours, 
attractions and events in the area; make reservations for 
accommodations, restaurants and transportation; purchase items at a 
book and gift store; see informative and exciting films about the 
creation of our nation and about the attractions of Philadelphia and 
the surrounding region; and have a light meal. The GVC will also be the 
distribution site for free tickets for admission to Independence Hall 
during peak periods.
    As currently envisioned, the GVC will consist of about 50,000 
square feet and be located on the center block of Independence Mall. As 
noted above, the NPS general management plan calls for a comprehensive 
effort to revitalize the mall, with the GVC serving as a catalytic and 
key component. The first phase of this revitalization initiative 
consists of a new and improved pavilion for the Liberty Bell; a 
renovated and enhanced underground parking garage; the GVC; and 
rejuvenation of the mall itself with a lovely outdoor cafe, kiosks, 
formal and informal seating areas and gathering spaces, and a park 
setting for viewing Independence Hall or simply playing and relaxing. 
Subsequent phases include a new facility focused on the Constitution 
and an institute to provide a structured educational experience 
primarily for school children.

Funding

    Development. The projected cost of the GVC is $30 million, 
consisting of $24 million for development of the building and interior 
exhibits and furnishings, and $6 million for an endowment to help 
support operations. This funding has been fully committed from non 
Federal sources as follows:

        The Pew Charitable Trusts----$10.0 million
        The Commonwealth of Pennsylvania----$10.0 million
        The City of Philadelphia----5.0 million
        The Annenberg Foundation----2.7 million
        The Connelly Foundation----2.0 million
        The John S. and James L. Knight Foundation----.3 million
    Operations. Once completed the GVC's annual operations will be 
supported through revenue generating activities, endowment income, and 
various stakeholder contributions. As described in the NPS testimony 
earlier this morning, an appropriate, fair share contribution from NPS 
will be required to help cover the GVC's maintenance and operating 
costs.

The Need for H.R. 4109

    The timely enactment of H.R. 4109 is essential to the realization 
of the regional gateway mission of the center. In essence, the bill 
under consideration this morning will:

        <bullet> Allow the GVC to provide information and orientation 
        services that extend beyond the bounds of INHP. For example, 
        under H.R. 4109, the GVC will be able to distribute information 
        and tickets about attractions throughout the city and the 
        surrounding region. And in the proposed store, it would be 
        permitted to sell high quality educational merchandise relating 
        to the greater Philadelphia region.
        <bullet> Allow the GVC to engage in various revenue-generating 
        activities--consistent with its regional mission and subject to 
        the approval of the NPS--in order to help support center 
        operations. For example, H.R. 4109 will permit the GVC to 
        operate a cafe, rent the center for conferences and receptions, 
        and charge fees for making hotel reservations and securing 
        tickets for attractions outside of the park boundaries.
        <bullet> Finally and related to the preceding item, H.R. 4109, 
        will allow the revenues generated by the GVC's facilities and 
        services to be used to help pay for the costs of operating the 
        center.
    Time is also of the essence, and enactment this year of H.R. 4109 
is critical. The Pew Charitable Trusts and other private 
philanthropies, the City of Philadelphia, and the Commonwealth of 
Pennsylvania committed their funds towards the development of a 
regional gateway center, a facility that would provide orientation and 
information about INHP and the city and region. The inability to 
achieve this vision--through the failure to enact H.R. 4109 this year--
would, at a minimum, most likely result in serious delays, jeopardizing 
the project and the substantial achievement of the Park Service's plans 
for Independence Mall.
    Mr. Chairman and members of the Subcommittee, I cannot impress upon 
you enough the importance of H.R. 4109 to fulfillment of the vision.
    Thank you.

                           Supplemental Sheet
James Pickman (president of Gateway Visitor Center Corporation) 3464 
Macomb Street, N.W. Washington, D.C. 20016 Telephone: (202) 686-1160 
Fax: (202) 966-3260

    Outline of Testimony: Support of H.R. 4109, a bill to authorize the 
Gateway Visitor Center at Independence National Historical Park in 
Philadelphia
    I. Background: The concept of a regional visitor center, or Gateway 
Visitor Center, on Independence Mall at Independence National 
Historical Park emerged from the convergence of two parallel 
explorations--one conducted by the National Park Service through its 
general management plan process and the other by The Pew Charitable 
Trusts.
    II. The Partnership: The design, construction, and operation of the 
Gateway Visitor Center (GVC) will be carried out by a partnership 
between the National Park Service and the Gateway Visitor Center 
Corporation, a nonprofit, 501(c)(3) tax-exempt organization 
representing a broad range of stakeholders.
    III. The Gateway Visitor Center: The GVC is intended to serve as 
the primary visitor orientation facility for the national park, the 
surrounding historic district, the City of Philadelphia, and the 
greater metropolitan region. The center is a catalyst and key component 
of the Park Service's plans to revitalize Independence Mall--in 
furtherance of its recently completed general management plan.
    IV. Funding for the GVC: This $30 million facility has been fully 
funded by private sector and non-Federal public sector sources, led by 
The Pew Charitable Trusts.
    V. Critical Need for H.R. 4109: Timely enactment of H.R. 4109 is 
essential to realizing the regional mission of the center. Failure to 
enact the bill this year will, at a minimum, most likely result in 
serious delays, jeopardizing the project and the substantial 
achievement of the Park Service's plans for Independence Mall.

                             JAMES PICKMAN
    For the past 19 years, James Pickman has been assisting national 
and local philanthropies, other nonprofit entities, and government 
agencies to design and manage programs, conduct strategic reviews, and 
structure and implement projects intended primarily to revitalize 
depressed urban areas, build stronger communities, provide affordable 
housing, meet facilities needs of nonprofit organizations, or spur 
economic development and jobs. One of his current assignments entails 
managing the development of the Gateway Visitor Center on Independence 
Mall in Philadelphia as part of a larger collaborative effort to 
revitalize the entire mall. The center would provide orientation to 
Independence National Historical Park, the surrounding historic 
district, and myriad other attractions in the city and region. Another 
current assignment is managing the National Community Development 
Initiative, a consortium of nine foundations, six corporations and the 
United States Department of Housing and Urban Development, which 
provides substantial funding to assist community development 
corporations across the country achieve a higher level of scale and 
impact in revitalizing their neighborhoods.
    Previously, Mr. Pickman held senior positions in the United States 
Department of Health, Education, and Welfare, the Bedford-Stuyvesant 
Restoration Corporation, and a New York City real estate company. He 
also practiced law for a Wall Street firm. Mr. Pickman holds a Bachelor 
of Arts degree from Princeton University and an LL.B. from Harvard Law 
School.
                                 ______
                                 
Statement of Alan S. Front, Senior Vice President, The Trust for Public 
                                  Land
    Mr. Chairman, my name is Alan Front, and I am Senior Vice President 
of The Trust for Public Land (TPL), a national non-profit land 
conservation organization that works with public agencies, landowners 
and communities to conserve natural, recreational and cultural resource 
lands for public use and enjoyment. I am pleased to appear before you 
today to discuss the remarkable cooperative efforts now underway to 
protect key lands in the corridor of Georgia's Chattahoochee River--
efforts that would be significantly forwarded by, and in many cases 
require, the realignment of Park Service boundaries as proposed in H.R. 
4141.
    The scope and breadth of these multi-party efforts are reflective 
of the many faces of the Chattahoochee itself. The river and its 
corridor lands are a vital source of water for the City of Atlanta, and 
more broadly for all of north Georgia and for a substantial swath of 
the southeastern United States. They host diverse wildlife, significant 
natural communities, and irreplaceable historic resources in the midst 
of one of America's most vibrant urban areas. And they afford a 
recreational haven for the millions of visitors each year to the dozen 
or so non-contiguous parkland areas that together comprise the 
Chattahoochee National Recreation Area.
    Over the past decade my organization has been gratified to work in 
partnership with willing-seller landowners, the National Park Service, 
and a diverse and ever-growing community of public officials, 
organizations, and individuals to secure properties of public 
significance within the current authorized boundaries of the 
Chattahoochee River NRA. Specifically, TPL has assisted during this 
period in NPS acquisition, through purchase and exchange of eight high-
priority ownerships along the river, including critical habitat, 
recreation, and watershed protection lands. We have been consistently 
and profoundly grateful for Speaker Gingrich's energetic leadership, 
and for the efforts of other members of the Georgia delegation and of 
Congress at large, in support of this important program.
    As much as the investment of energy and funding has done to address 
protection needs with the Park Service's existing boundaries along the 
river, we also have witnessed the practical limits the Service now 
faces at the Chattahoochee. A number of areas originally included in 
the NRA boundaries have been developed and are no longer appropriate 
candidates for public management and use. Conversely, many properties 
that would logically augment current NPS holdings--park quality lands 
that would link existing ``islands'' of Federal ownership, allow 
synergistic improvement of the existing trial system, and provide both 
watershed protection and much-needed recreation opportunities--lie 
outside the boundaries, interspersed between NPS-managed lands in the 
designated ``area of national interest'' from Lake Lanier to the 
Atlanta city limits.
    H.R. 4141 would address this schism by adopting an achievable 
greenway approach for the Chattahoochee NRA. Developed neighborhoods 
would be excluded from the Park Service boundary, while other key 
resource and connector lands would be added to it. That this strategy 
will promote a manageable NRA that optimally serves public needs is 
clear. Just as clearly, this approach will have a power-

ful leveraging effort, teaming Federal efforts with an astounding array 
of non-Federal energies and investment.
    The Chattahoochee greenway concept has been embraced by corporate 
leaders, community and conservation groups, the philanthropic 
community, and a panoply of state and local government agencies and 
officials. This partnership has committed itself to protecting not only 
the designated area of national interest, but an even longer stretch of 
the Chattahoochee from the upper reaches of the river's headwaters to 
urban Atlanta and beyond. Georgia governor Zell Miller had dedicated 
$15 million, fully three-fourths of the state's Rivercare 2000 budget, 
to this effort in the coming year. Considerable charitable monies also 
are being committed, some of which will be applied to Park Service 
acquisitions, stretching Federal dollars. These non-Federal commitments 
presume, and in some cases are predicated upon, a concurrent Federal 
commitment to the greenway.
    Such a commitment will need to come quickly to realize this vision 
and to take advantage of these complementary investments. The 
metropolitan Atlanta real estate market is strong; even though they 
might prefer to participate in this public spirited program many 
willing-seller landowners will not wait until next year if public 
purchase cannot proceed soon. For many properties along the river, this 
is a time of great promise, and great peril.
    Consequently, The Trust for Public Land and our many colleagues in 
the Chattahoochee River Protection effort deeply appreciate the timely 
introduction of this important legislation and its expeditious 
consideration by the Committee.
                                 ______
                                 

       Statement of D. Blaine Weaver, Washington County, Maryland

    Thank you for allowing me to make a presentation today, 
July 16, 1998. My name is D. Blaine Weaver and I reside in 
Washington County, Maryland, in the 6th Congressional District 
represented by Congressman Roscoe G. Bartlett. Today, I am here 
advocating support for H.R. 4158. Why am I doing this, because 
I have five grandchildren, ages six to ten years old, who just 
completed a week of fishing and water skiing at our summer home 
in Washington County, Maryland along the C&O Canal National 
Historical Park (Park). Since they enjoy these activities very 
much, their question to me and mine to you is ``WHY WON'T WE BE 
ABLE TO USE THIS PROPERTY AFTER THE YEAR 2000?''
    Our property Track No. 38-109 is located along the Potomac 
River, above Dam #4 where there is no canal and all the 
properties in this area are high (60-75 feet) above the river, 
out of sight from the Tow Path. These properties have never 
been used by the public nor the National Park Service (NPS) 
because the Tow Path is immediately adjacent to the river and 
75 feet below the properties which are located on the rock 
cliff.
    Many of the adjacent lessees (right of use) and I feel that 
the Department of the Interior's employees in the early to mid 
1970's used heavy duress tactics, always with the threat of 
condemnation by the Federal Government, to obtain these 
properties. Our only option was to sell the property to the 
government and retain the use or have the property condemned. 
In our case we were not really paid the fair market price for 
the property and the 25 year lease fees were deducted along 
with the salvage fee at the time of the sale leaving the net 
proceeds to us. Anyone knowing future value of money knows the 
Federal Government received a real bargain.
    Also, 23 years ago, in this same time period, I was misled 
by statements issued by the Park Service Acquisition Officer, 
that they would procure all adjoining property along the entire 
184 mile length of the canal and it would become the C&O Canal 
Historical National Park. This did not occur. I can cite many 
instances where properties were not procured or very favorable 
conditions were granted. This occurred all along the canal from 
Georgetown to Cumberland, Maryland.
    I'll cite a few of these instances:

        1. Starting in Georgetown, there is Water Street between the 
        restored C&O Canal and the Potomac River with many restored 
        offices, condos, restaurants and businesses.
        2. In our immediate area, above Dam #4, Jack Berkson deeded 17 
        feet along the Potomac River (actual Tow Path) of his 90 acres 
        to the government. He reserved the right to cross the Tow Path 
        and place docks for 300 feet along the river during the summer 
        months for a period of 99 years. Mr. Berkson is currently 
        developing the 90 acres in lot sites for residential housing.
        3. Also, above Dam #4, Mr. Perini did not give up any of his 
        land and now has a very beautiful residence immediately above 
        the river and Tow Path. In addition the property was subdivided 
        into residential lots.
        4. Also, above Dam #4, The Potomac Fish and Game Club with 550 
        members has numerous cabins and trailers situated between the 
        C&O Canal and the Potomac River.
    The NPS has changed the original boundaries of the C&O Canal by 
acquiring our properties, which were not part of the original C&O 
Canal.
    The NPS declared that they were going to turn the properties back 
to nature, as the leases (right to use) expired. However, in our 
immediate area the foundations and various types of junk remain on 
these properties. Also, when the COO Canal was in operation, the 
property owners along the river interacted with the canal workers. We 
have kept this tradition alive for people using the Tow Path by 
providing assistance, directions and emergency help when needed. Just 
last week, a hiker from the Netherlands lost his back pack with his 
credit cards and money and he asked to use the cell phone to call his 
bank in the Netherlands. I referred him to a regular phone 
approximately a mile away.
    For many years, I have provided river activities for civic clubs. 
The local Boys and Girls Club, Inc. have used our steps down to the 
river to rock rappel off the high rock cliffs along the Tow Path. The 
local Kiwanis Club has sponsored the Girls, Inc. club for a day at the 
river, including swimming, water skiing and lunch.
    Apparently, the NPS will issue blinders to all the bicyclists and 
hikers, so that they do not see all of the non nature properties still 
along the C&O Canal and Tow Path. Lo and behold, if they look across 
the Potomac River to the West Virginia landscape, they will see all 
kinds of non nature property and activity which includes new private 
boat ramps, boat docks, all types of housing from mobile homes to high 
priced residential homes. I wonder if NPS is planning to also turn the 
West Virginia side of the Potomac River back to nature?
    After stating for years that the NPS did not have the authority to 
extend leases or issue new ones, they are currently offering leases for 
up to 99 years under the Historic Leasing Program concerning historic 
properties within the park. Some of the properties in our area are 
being advertised for commercial purposes such as, bed and breakfasts 
and restaurants. Who determines that the property is historic? Is the 
NPS currently in the business of leasing?
    This property has been in our family 41 years, (Track No. 38-109), 
I request your assistance in obtaining a 99-year lease extension rights 
of use and occupancy or the opportunity to purchase back the land from 
the government.
    All the other lessees that I have spoken to want the same 
opportunity to extend their lease rights of use and occupancy for 99 
years or to purchase back the land from the government.
    Thank you very much for this opportunity to testify at this hearing 
and we sincerely seek your assistance and support of H.R. 4158.

[GRAPHIC] [TIFF OMITTED] T0342.008

[GRAPHIC] [TIFF OMITTED] T0342.009

[GRAPHIC] [TIFF OMITTED] T0342.010

[GRAPHIC] [TIFF OMITTED] T0342.011

 Statement of Peter Kirby, Southeast Regional Director, The Wilderness 
                                Society

Dear Chairman Hansen:
    On behalf of its over 200,000 members nationwide and over 
4,000 in Georgia, The Wilderness Society supports the 
worthwhile goal of this legislation to establish a continuous 
greenway along a forty-eight mile stretch of the Chattahoochee 
River in metropolitan Atlanta. As noted in the bill's findings, 
the population in the area around the river is growing rapidly, 
with major development of open space and adverse effects on the 
river from construction, pollution and siltation. Unless action 
is taken soon to preserve remaining natural, scenic and 
historic resources along the river, our opportunities to 
protect the nationally significant values within the river 
corridor will be lost forever.
    H.R. 4141 increases the authorized acreage of the park to 
10,000 acres. It allows for the expansion of the boundaries up 
to 2,000 acres on each bank of the river, as set out in a map 
to be submitted by the National Park Service, with the intent 
of connecting the existing separate, individual units of the 
NRA. H.R. 4141 also authorizes $25 million for the Federal land 
acquisition. This will be augmented with extensive matching 
funds provided from the state of Georgia, local governments, 
private foundations, corporations and other sources.
    An expansion of the park will yield multiple benefits for 
the ecology and the population of the area and the region. The 
Chattahoochee River provides the drinking water for the Atlanta 
metropolitan area and almost half the people of the state; the 
greenway will help maintain water quality as a buffer from 
development near the river. There is also a great need for 
additional recreation opportunities in the area to keep pace 
with the explosive growth in population within recent years. As 
noted in the statement of the National Park Service, linear 
corridors linking the existing units would afford valuable 
opportunities for walking, jogging, hiking and nature study on 
both sides ``of one of the Nation's great urban rivers.''
    As urged in the statement of the National Park Service, we 
request the Committee to make some vitally-needed improvements 
in the legislation that will help make it possible to establish 
this linear park. Of great concern is the ``opt out'' provision 
of Section 2. The great danger is that landowners may quickly 
elect to ``opt out'' of the park within the very short time 
line called for in the Act without there ever being the 
opportunity for the National Park Service to even negotiate. 
This could be particularly damaging here where the chance to 
join units is limited in areas that have been heavily 
developed. Also of concern in Section 2 is the bill's 
prohibition on land acquisition without the consent of the 
landowner. The National Park Service notes that it doubts 
condemnation will be used for this project but also states it 
may be a necessary last resort to clear title or prevent 
irreparable damage to key values. We recommend that these two 
provisions be taken out.
    This goal of a Chattahoochee River greenway has the backing 
of a wide and influential range of leaders and groups in the 
region who are committed to ensuring it becomes a reality. We 
commend Representative Gingrich for his leadership with the 
introduction of the bill, the Trust for Public Land and our 
other conservation allies for the development of the proposal, 
Governor Zen Miller and others for their committments to future 
funding and to others in the Congressional delegation for their 
close attention to this initiative. We hope the Committee will 
move the bill along, with changes as noted, so that it can be 
enacted this year.
    Please include this letter in the printed record for the 
Comittee's hearing on July 16, 1998.

[GRAPHIC] [TIFF OMITTED] T0342.013

[GRAPHIC] [TIFF OMITTED] T0342.014

[GRAPHIC] [TIFF OMITTED] T0342.015

[GRAPHIC] [TIFF OMITTED] T0342.016

[GRAPHIC] [TIFF OMITTED] T0342.017

[GRAPHIC] [TIFF OMITTED] T0342.018

[GRAPHIC] [TIFF OMITTED] T0342.019

[GRAPHIC] [TIFF OMITTED] T0342.020

[GRAPHIC] [TIFF OMITTED] T0342.021

[GRAPHIC] [TIFF OMITTED] T0342.022

[GRAPHIC] [TIFF OMITTED] T0342.023

[GRAPHIC] [TIFF OMITTED] T0342.024

[GRAPHIC] [TIFF OMITTED] T0342.025

[GRAPHIC] [TIFF OMITTED] T0342.026

[GRAPHIC] [TIFF OMITTED] T0342.027

[GRAPHIC] [TIFF OMITTED] T0342.028

[GRAPHIC] [TIFF OMITTED] T0342.029

[GRAPHIC] [TIFF OMITTED] T0342.030

[GRAPHIC] [TIFF OMITTED] T0342.031

[GRAPHIC] [TIFF OMITTED] T0342.032

[GRAPHIC] [TIFF OMITTED] T0342.033

[GRAPHIC] [TIFF OMITTED] T0342.034

[GRAPHIC] [TIFF OMITTED] T0342.035

[GRAPHIC] [TIFF OMITTED] T0342.036

[GRAPHIC] [TIFF OMITTED] T0342.037

[GRAPHIC] [TIFF OMITTED] T0342.038

[GRAPHIC] [TIFF OMITTED] T0342.039

[GRAPHIC] [TIFF OMITTED] T0342.040

[GRAPHIC] [TIFF OMITTED] T0342.041

[GRAPHIC] [TIFF OMITTED] T0342.042

[GRAPHIC] [TIFF OMITTED] T0342.043

[GRAPHIC] [TIFF OMITTED] T0342.044

[GRAPHIC] [TIFF OMITTED] T0342.045

[GRAPHIC] [TIFF OMITTED] T0342.046

[GRAPHIC] [TIFF OMITTED] T0342.047

[GRAPHIC] [TIFF OMITTED] T0342.048

[GRAPHIC] [TIFF OMITTED] T0342.049

[GRAPHIC] [TIFF OMITTED] T0342.050


</pre></body></html>
